<html>
<title> - RADIOLOGICAL RESPONSE: ASSESSING ENVIRONMENTAL AND CLINICAL LABORATORY CAPABILITIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                    RADIOLOGICAL RESPONSE: ASSESSING
                       ENVIRONMENTAL AND CLINICAL
                        LABORATORY CAPABILITIES

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON INVESTIGATIONS AND
                               OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 25, 2007

                               __________

                           Serial No. 110-67

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov




                     U.S. GOVERNMENT PRINTING OFFICE

38-340 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

              Subcommittee on Investigations and Oversight

               HON. BRAD MILLER, North Carolina, Chairman
JERRY F. COSTELLO, Illinois          F. JAMES SENSENBRENNER JR., 
EDDIE BERNICE JOHNSON, Texas             Wisconsin
DARLENE HOOLEY, Oregon               DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
BRIAN BAIRD, Washington              PAUL C. BROUN, Georgia
BART GORDON, Tennessee               RALPH M. HALL, Texas
                DAN PEARSON Subcommittee Staff Director
                  EDITH HOLLEMAN Subcommittee Counsel
            JAMES PAUL Democratic Professional Staff Member
       DOUGLAS S. PASTERNAK Democratic Professional Staff Member
           KEN JACOBSON Democratic Professional Staff Member
                    BART FORSYTH Republican Counsel
            TOM HAMMOND Republican Professional Staff Member
                    STACEY STEEP Research Assistant
                            C O N T E N T S

                            October 25, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brad Miller, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science and 
  Technology, U.S. House of Representatives......................     5
    Written Statement............................................     7

Statement by Representative F. James Sensenbrenner, Jr., Ranking 
  Minority Member, Subcommittee on Investigations and Oversight, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................    10

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science and Technology, U.S. House of Representatives..........    11

                               Witnesses:

Ms. Dana Tulis, Deputy Office Director, Office of Emergency 
  Management, U.S. Environmental Protection Agency; accompanied 
  by Dr. John Griggs, Chief, Monitoring and Analytical Services 
  Branch, Office of Radiation and Indoor Air, National Air and 
  Radiation Environmental Laboratory (NAREL), U.S. Environmental 
  Protection Agency
    Oral Statement...............................................    12
    Written Statement............................................    14

Dr. Robert T. Hadley, Chair of Federal Radiological Monitoring 
  and Assessment Center's Laboratory, Analysis Working Group, 
  Lawrence Livermore National Laboratory, U.S. Department of 
  Energy
    Oral Statement...............................................    18
    Written Statement............................................    19
    Biography....................................................    22

Dr. Robert L. Jones, Acting Chief, Inorganic and Radiation 
  Analytical Toxicology Branch, Division of Laboratory Sciences, 
  National Center for Environmental Health, Centers for Disease 
  Control and Prevention, U.S. Department of Health and Human 
  Services
    Oral Statement...............................................    22
    Written Statement............................................    24

Dr. John Vitko, Director of Chemical and Biological Division, 
  U.S. Department of Homeland Security; representing Dr. S. 
  Randolph Long, Chief Technical Advisor, Chemical and Biological 
  Division, Science & Technology Directorate, Department of 
  Homeland Security
    Oral Statement...............................................    27
    Written Statement............................................    29

Discussion
  National Environmental Radiological Laboratory Capacity Gap 
    Assessment...................................................    33
  How the Gap Effects Response to a Dirty Bomb...................    34
  Ability to Evaluate the Damage Done By an Attack...............    34
  QAP Programs...................................................    35
  The Decision to Close QAP......................................    35
  EPA Preparedness to Deal With a Dirty Bomb.....................    36
  Assessing a Radiological Event.................................    36
  More on the Capacity Gap.......................................    36
  Why Is There a Lack of Capacity?...............................    36
  Why Isn't the DOE Prepared for a Radiological Emergency?.......    37
  The TOPOFF Simulation..........................................    37
  DOE Executives.................................................    38
  Environmental Samples..........................................    38
  What Did the Polonium-210 Poisoning Tell Us About Our Capacity?    39
  CDC Using DOE Laboratories.....................................    39
  Environmental Radioanalytical Laboratory Response Network......    40
  Timeline and Plans for Expanding the Current Capacity..........    40
  What Are the Next Steps to Being Better Prepared?..............    41


RADIOLOGICAL RESPONSE: ASSESSING ENVIRONMENTAL AND CLINICAL LABORATORY 
                              CAPABILITIES

                              ----------                              


                       THURSDAY, OCTOBER 25, 2007

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 9:35 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brad 
Miller [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              SUBCOMMITTEE ON INVESTIGATIONS AND OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                    Radiological Response: Assessing

                       Environmental and Clinical

                        Laboratory Capabilities

                       thursday, october 25, 2007
                          9:30 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    Every two years the government conducts the TOPOFF series of 
national counter-terrorism exercises, mandated by Congress. This year, 
TOPOFF IV (T4) is taking place from October 14-24, 2007, and will focus 
on National Planning Scenario #11, which envisions the detonation of a 
Radiological Dispersal Device (RDD) or ``dirty bomb.'' In this 
exercise, involving thousands of federal, state and local officials and 
sponsored by the Department of Homeland Security (DHS), terrorists 
detonate an RDD in Guam, Portland, Oregon and Phoenix, Arizona. The 
exercise will test the handling and flow of operational and time-
critical intelligence between agencies and the existing procedures and 
policies for domestic incident management of a major radiological 
event.
    One of the key assumptions in the National Planning Scenario 
developed by the White House's Homeland Security Council and being 
exercised in TOPOFF IV is that all potentially exposed individuals (an 
estimated 100,000 people at each site) will be tested for radiological 
exposure and/or contamination and that a valid method exists for 
testing these clinical specimens. Yet, validated methods to test 
clinical specimens in a radiological emergency exist for only six of 
the 13 highest priority radioisotopes most likely to be used in a 
terrorist scenario. For those isotopes for which ``validated'' methods 
do exist screening 100,000 individual clinical specimens in the wake of 
a radiological attack could take more than four years to complete due 
to the current shortfall in radiochemistry laboratories, personnel and 
equipment. Environmental sampling could take as long as six years to 
complete given the current capacity and capabilities of the U.S. 
radiochemistry laboratory infrastructure.
    Although not a focus of the TOPOFF IV exercise, in any real world 
event the critical lack of a sufficient environmental and clinical 
radiochemistry laboratory capacity will delay appropriate public health 
care actions and plans, increase public panic, degrade public trust in 
government officials and increase the economic losses due to delays in 
assessment and cleanup. The Subcommittee hearing on radiological 
response will review what steps are underway to address this critical 
need, what technologies or resources would help tackle this capacity 
gap and what federal agencies responsible for addressing this need have 
learned from actual radiological emergencies, such as the recent 
Polonium-210 poisoning in London that killed former Russian KGB agent 
Alexander Litvinenko last November and the 1987 (accidental) 
radiological release in Goiania, Brazil, that killed four people and 
injured hundreds. It will also examine why this crucial public health 
ability has received limited attention and what more needs to be done 
to improve the U.S. radiochemistry laboratory infrastructure.

Witnesses

Dr. Randolph Long, Chair of the Integrated Consortium of Laboratory 
Networks (ICLN) Network Coordinating Group and Chief Technical Adviser, 
Chemical and Biological Division, Science and Technology Directorate, 
Department of Homeland Security.

Dr. Robert L. Jones, Chief, Inorganic Toxicology and Radionuclide Labs, 
Centers for Disease Control and Prevention. He is also the Co-Chair of 
the Integrated Consortium of Laboratory Networks (ICLN) Network 
Coordinating Group's Radiological Laboratory Response Workgroup and 
headed up the CDC's Polonium-210 response efforts last year.

Dr. Robert T. ``Robb'' Hadley, Lawrence Livermore National Laboratory, 
Department of Energy. Dr. Hadley is the current Chair of the Federal 
Radiological Monitoring and Assessment Center's (FRMAC) Laboratory 
Analysis Working Group and was formerly the Chair of the FRMAC Health & 
Safety Working Group.

Dr. John Griggs, Chief, Monitoring and Analytical Services Branch, U.S. 
Environmental Protection Agency, Office of Radiation and Indoor Air, 
National Air and Radiation Environmental Laboratory (NAREL) and Co-
Chair of the ICLN Network Coordinating Group's Radiological Laboratory 
Response Workgroup.

Ms. Dana Tulis, Deputy Director, Office of Emergency Management (OEM), 
Environmental Protection Agency (EPA).
    Chairman Miller. Good morning. This hearing will come to 
order. Today's hearing is on Radiological Response: Assessing 
Environmental and Clinical Laboratory Capabilities.
    If there is one punch that terrorists have clearly 
telegraphed, it is the detonation of a dirty bomb in an 
American city. A dirty bomb is a conventional bomb that 
broadcasts, spreads radioactive material, contaminating perhaps 
several city blocks. We heard years ago that Osama bin Laden 
had tried to obtain radioactive materials to use in a dirty 
bomb.
    But the Federal Government was better prepared for Katrina 
than we are now for the detonation of a dirty bomb in an 
American city.
    Yesterday concluded a ten-day national counterterrorism 
exercise called TOPOFF that included the participation of 
thousands of State, local, and federal officials. The exercise 
was based on the White House's National Planning Scenario #11 
that envisions the simultaneous detonation of a ``dirty bomb'' 
or Radiological Dispersal Device in three major urban areas. 
The simulated attacks in this exercise took place in Guam, 
Phoenix, Arizona, and Portland, Oregon. Perhaps one of you 
could explain why Guam was included as what I had not thought 
of as a major American city.
    In a real radiological terrorist attack, the Environmental 
Protection Agency estimates that they would need to collect, 
process, and analyze more than 350,000 environmental samples in 
the 12 months after the incident. The Center for Disease 
Control and Prevention, the CDC, is charged with monitoring and 
assessing the public's health in response to a radiological 
emergency, and the CDC estimates that they would need to screen 
100,000 individuals for potential radiological exposure for 
internal contamination in the first days after a radiological 
attack.
    Yet, depending on the type of radioactive materials used in 
a real-world event, the EPA predicts that given the Nation's 
current radiochemistry laboratory infrastructure, it might take 
them six years to analyze the 350,000 samples necessary to 
conduct a thorough environmental analysis, and that is just in 
one city. One of the key assumptions outlined in the national 
planning documents upon which the most recent TOPOFF exercise 
was based is that all potentially exposed individuals, an 
estimated 100,000 people in each city, will be tested for 
radiological contamination and that a valid method exists for 
testing those clinical specimens.
    For those isotopes for which validated methods do exist, 
screening 100,000 clinical specimens in the wake of a 
radiological attack could take more than four years to complete 
because of the current shortfall in radiochemistry 
laboratories, personnel, and equipment. That is the good news. 
The CDC currently has no valid method to test clinical 
specimens in a radiological emergency for seven of the 13 most-
likely radioisotopes, radioactive materials, used in a 
terrorist attack, in a dirty bomb attack.
    Those drastic shortfalls may have far-reaching implications 
for government officials responsible for responding to and 
recovering from a national radiological emergency.
    Today, we will hear from representatives from the CDC, EPA, 
Department of Energy, the Department of Homeland Security, 
about the gaps that exists in their ability to respond to a 
radiological emergency effectively and efficiently by conducing 
rigorous and rapid analysis of radiological environmental and 
clinical samples. Radiochemistry laboratories provide a vital 
role in determining who has been contaminated and the nature 
and dangers of their exposures providing a roadmap for 
appropriate medical care.
    These labs also provide assessments of environmental 
contamination that affect evacuation, remediation, and 
restoration decisions that have serious social, public health, 
political, and economic implications for potentially millions 
of people. The ability to provide policy-makers with analytical 
data regarding the scale, scope, and public health implications 
of potential radiological contamination quickly and accurately 
is critical to making informed decisions regarding evacuation, 
re-occupation, medical treatment, and environmental clean-up. 
But given the Nation's current lab capacity, they can't 
possibly get that information when we need it.
    Last November, former Russian KGB agent Alexander 
Litvinenko was murdered in London using radioactive isotope 
Polonium-210. It took a long time for the British to figure out 
what had happened to him, and what was wrong. Fearful that 
others may have been exposed to the radiation, our CDC 
identified 160 American citizens who had been in the same 
hotels, the same restaurants that Litvinenko had been in at 
about the same time. And in the end, none of them had anything 
to fear. They did not suffer from any radiological 
contamination. But in attempting to locate a laboratory to do 
the clinical analysis for exposure to Polonium-210, the CDC 
found that only one single U.S. private lab was qualified and 
capable of doing the analysis, which really shows the massive 
shortfall in our radiochemistry laboratories.
    There have been some efforts to close the gap, but the 
results have been slow and at times the bureaucratic response 
in some agencies has been infuriating. In 2005 the Department 
of Homeland Security established an Integrated Consortium of 
Laboratory Networks to help establish the capacity and 
capability to address this radiochemistry gap. But at the very 
same time, elsewhere in DHS, DHS was terminating a major, 
world-renowned radiochemistry quality assurance program at the 
Environmental Measurements Laboratory in New York.
    That decision has had significant effect on many State and 
federal radiochemistry labs undermining their ability to 
certify that the sample results they provide are accurate and 
reliable.
    Today, there are renewed calls for federal agencies to 
establish a proficiency testing program as part of radiological 
networks proposed by the CDC and the EPA to ensure that the 
data radiological emergency response officials and the public 
receive is dependable and trustworthy. We're going to have to 
spend some money and it is going to be to establish a program 
that is pretty much identical to the one that we just closed.
    It is true that a radiological attack, a dirty bomb, would 
probably result in relatively few deaths initially, but there 
would be large-scale, low levels of exposure to a lot of people 
and a lot of critically important territory perhaps in city 
centers. Imagine the economic effect if we could not tell for 
days whether the downtown, the bottom of Manhattan, the 
financial district could be occupied again, whether we could 
use those buildings, whether we could go there, whether we 
needed to demolish those buildings or clean them up before we 
could safely occupy those buildings again. And there would just 
be tens of thousands of people who would want to know whether 
they were contaminated, whether they suffered from internal 
contamination, whether their health was at risk, whether their 
children were affected by exposure.
    Closing the capacity gap that we have as soon as possible 
would be an insurance policy against much worse effects of a 
dirty bomb attack.
    The public expects that we do better than what we are 
prepared to do now, and the government's planning documents 
identify the estimated scale of the response, and it is clear 
that we do not have the capacity to do what is required of us. 
It seems we are likely headed for a radiological Katrina if 
terrorists do succeed in detonating a dirty bomb in an American 
city.
    [The prepared statement of Chairman Miller follows:]
               Prepared Statement of Chairman Brad Miller
    If there's one punch that terrorists have clearly telegraphed, it's 
the detonation of a ``dirty bomb'' in an American city. A dirty bomb is 
a conventional explosion that spreads radioactive material, 
contaminating perhaps several city blocks. We heard years ago that 
Osama bin Laden had tried to obtain radioactive materials to use in a 
dirty bomb.
    But the Federal Government was better prepared for Katrina than we 
are for the detonation of a dirty bomb in an American city.
    Yesterday concluded a ten-day national counterterrorism exercise 
called TOPOFF that included the participation of thousands of local, 
State and federal officials. The exercise was based on the White 
House's National Planning Scenario #11 that envisions the simultaneous 
detonation of a ``dirty bomb'' or Radiological Dispersal Device (RDD) 
in three major urban areas. The simulated attacks in this exercise took 
place in Guam, Phoenix, Arizona and Portland, Oregon.
    In a real radiological terrorist attack, the Environmental 
Protection Agency (EPA) estimates that they would need to collect, 
process and analyze more than 350,000 environmental samples in the 12 
months following the incident. The Centers for Disease Control and 
Prevention (CDC), charged with monitoring and assessing the public's 
health in response to a radiological emergency, estimates that they 
will need to screen 100,000 individuals for potential radiological 
exposure in the first few days after a radiological attack.
    Yet, depending on the types of radioactive material used in a real 
world event, the EPA predicts that given the Nation's current 
radiochemistry laboratory infrastructure it could take them as long as 
six years to analyze the 350,000 samples necessary to conduct a 
thorough environmental analysis--in just one city. One of the key 
assumptions outlined in the national planning documents upon which the 
most recent TOPOFF exercise was based is that all potentially exposed 
individuals (an estimated 100,000 people) will be tested for 
radiological contamination and that a valid method exists for testing 
these clinical specimens.
    For those isotopes for which validated methods do exist screening 
100,000 clinical specimens in the wake of a radiological attack could 
take more than four years to complete due to the current shortfall in 
radiochemistry laboratories, personnel and equipment. And that's the 
good news. The CDC currently has no valid method to test clinical 
specimens in a radiological emergency for seven of the 13 highest 
priority radioisotopes most likely to be used in a terrorist scenario.
    These drastic shortfalls may have far-reaching implications for 
government officials responsible for responding to and recovering from 
a national radiological emergency. Today, we will hear from 
representatives at the CDC, EPA, Department of Energy (DOE) and 
Department of Homeland Security (DHS), about the massive gap that 
exists in their ability to respond to a radiological emergency 
effectively and efficiently by conducing rigorous and rapid analysis of 
radiological environmental and clinical samples. Radiochemistry 
laboratories provide a vital role in determining who's been 
contaminated and the nature and dangers of their exposures providing a 
roadmap for appropriate medical treatment. These labs also provide 
assessments of environmental contamination that affect evacuation, 
remediation and restoration decisions and have serious social, public 
health, political and economic implications for potentially millions of 
people. The ability to provide policy-makers with analytical data 
regarding the scale, scope and public health implications of potential 
radiological contamination quickly and accurately is critical to making 
informed decisions regarding evacuation, re-occupation, medical 
treatment and environmental clean-up. But given the Nation's current 
lab capacity gap they can't possibly get that information when they 
need it.
    Last November, former Russian KGB agent Vladimir Litvinenko was 
murdered in London with the radioactive isotope Polonium-210. Fearful 
that others may have been exposed to the radiation, the CDC identified 
160 U.S. citizens that were in the same hotels and restaurants as 
Litvinenko around the same time. In the end, none of them had anything 
to fear. They did not suffer from any radiological contamination. But 
in attempting to locate a laboratory to do the clinical analysis for 
exposure to Polonium-210, the CDC found only one single U.S. private 
lab that was qualified and capable of doing the analysis, highlighting 
the massive shortfall in U.S. radiochemistry laboratories.
    There have been some efforts to close this gap, but the results 
have been slow and at times the bureaucratic response in some agencies 
has been infuriating. In 2005 the Department of Homeland Security 
helped establish an Integrated Consortium of Laboratory Networks (ICLN) 
to help establish the capacity and capability to address this 
radiochemistry gap. Inexplicably at the very same time, the very same 
agency was terminating a major, world renowned radiochemistry quality 
assurance program at the Environmental Measurements Laboratory in New 
York. That decision has had a significant effect on many state and 
federal radiochemistry labs undermining their ability to certify that 
the sample results they provide are accurate and reliable. Today, there 
are renewed calls from federal agencies to establish a ``proficiency 
testing'' program as part of radiological networks proposed by the CDC 
and EPA to ensure that the data radiological emergency response 
officials and the public receive is dependable and trustworthy. We're 
going to have to spend money to establish an identical program to the 
one that DHS just ended a couple of years ago if we're going to have 
the radiological testing capacity needed to respond to a dirty bomb.
    A radiological attack is likely to result in few immediate deaths 
but large scale low-levels of radioactive exposure to the vast majority 
of victims. Regardless of the actual public health impact, however, a 
``worried well'' of tens of thousands of individuals are likely to 
demand clinical tests that can confirm they have not been contaminated 
with radiation. Providing that reassurance will help maintain the 
public's confidence in the government and will help stem a potential 
tide of growing fear that large segments of the public may have 
suffered from radiological contamination, however unfounded. Most 
important, this analysis will help identify those truly contaminated so 
that they can receive appropriate medical treatment as soon as 
possible. Closing this capacity gap as soon as possible would be a 
small insurance policy against a far larger disaster in the future. The 
public expects the Federal Government to be able to respond 
appropriately; the government's own planning documents identify the 
estimated scale of that response; yet the government has not moved 
actually to put into place the mechanisms we need to carry that 
response forward. Without the ability to conduct both environmental and 
clinical radiological assessments reliably and quickly it seems we may 
be headed for a radiological Katrina if terrorists succeed in 
detonating a dirty bomb in an American city.

    Chairman Miller. The Chair now recognizes Mr. Sensenbrenner 
for his opening statement.
    Mr. Sensenbrenner. Thank you very much. For once I am happy 
to endorse everything that the Chairman has said in his opening 
statement, and let me begin by saying that the potential for 
radiological accidents or attacks is a reality that we need to 
prepare for. This is something that has to be a high priority.
    Several years ago I took one of those infamous 
Congressional oversight trips, and when I was in northern 
Norway, I was advised by an environmental NGO that there were 
over 100 beacons that the former Soviet Union put on their 
Arctic coast powered by cesium-137 batteries and that there 
were also a number of these beacons in the mountains of the 
Caucasus with similar powering. They are all in very remote 
areas. It would be very easy for someone to take the cesium-137 
battery and to turn it into a dirty bomb without anybody 
knowing that the batteries were missing. The day following this 
discovery, a scientist who was on this trip and who was 
temporarily on Senator Biden's staff asked the Norwegian 
scientists that were studying Arctic issues how many dirty 
bombs each of these batteries could make. The answer was 10 a 
piece. And as a result of this, Senator Biden and I 
successfully co-sponsored legislation which was signed into law 
amending the Nunn-Lugar Act to allow us to buy this nuclear 
material from the Russian government, like we did with other 
types of nuclear material, not only from Russia but the other 
independent republics of the former Soviet Union. It is my 
understanding that a battery was left by somebody in Gorky Park 
in Moscow to let the Russian government know that somebody had 
their hands on these types of nuclear materials that shouldn't 
have them. And this is truly scary because if the Chechen 
rebels have these batteries, I think we can assume that there 
has been a move by other terrorist organizations which target 
the United States and having these batteries.
    If there is a dirty bomb explosion, not only will there be 
potentially tens or hundreds of thousands of people exposed to 
contamination, but the panic that will set in if large parts of 
major cities have to be evacuated. And I think that is one of 
the reasons why the exercise that just concluded yesterday was 
something that was real time and something that we have to 
prepare for.
    Now, in June of 2005 the Homeland Security Department 
released the Technology Assessment Roadmap known as ERDAP, and 
that assessment found, quote, ``tools to rapidly triage 
individuals needing medical attention and to intelligently 
direct medical treatment to those needing immediate care will 
optimize the use of scarce resources, improve survival, and 
enhance public confidence in government.'' These tools don't 
exist today.
    Following a radiological incident, there is a critical need 
to determine who has been exposed and to what degree. Rapid 
radiological dose assessment is critical for determining who 
needs treatment and what treatment is needed. And as ERDAP 
found, quote, ``lives may be saved if we can develop rapid dose 
assessment and can implement earlier treatment.''
    Despite this critical need, we are still suffering from a 
clear technology gap. Validated methods of testing in a 
radiological emergency exist for only six of the CDC's 13 
highest priority radioisotopes most likely to be used in a 
terrorist scenario. And for those isotopes where screening 
methods do exist, screening the number of individuals likely to 
be exposed in a terrorist attack could take years.
    Real-world radiological incidents should be instructive. 
The most recent example was the Polonium-210 poisoning in 
London that killed former KGB agent Alexander Litvinenko. The 
CDC estimated that 160 Americans were potentially exposed to 
radiation as the Chairman indicated. When it attempted to test 
these individuals, it found that there was only one laboratory 
in the country capable of carrying out the test and it only had 
the capacity to test a handful of people per day. Fortunately, 
all of these tests proved negative on the Americans who were 
exposed.
    A radiological incident in an urban area could result in 
much greater exposure. In 1987, in Goiania, Brazil, a small 
source of cesium-137, which is the same isotope that I referred 
to in these beacons in the former Soviet Union, was stolen from 
an abandoned radiotherapy institute. By the time the material 
was recognized as dangerous 15 days later, four people were 
dead and hundreds were injured by internal contamination. Over 
100,000 people had to be examined for radiological 
contamination, topsoil had to be removed from several sites, 
and several houses were demolished. Neither of these incidents 
originated from an intentional effort to spread contamination. 
The scale of an actual radiological attack would be likely much 
greater.
    In a report titled Creation of a National Radioanalytical 
Laboratory Response Network, the Integrated Consortium of 
Laboratory Networks workgroup found that in the case of a 
radiological dispersion device, better known as a dirty bomb, 
in an urban district, 350,000 environmental samples would need 
to be collected over 12 months; and more than 100,000 clinical 
samples would need to be collected, analyzed, and processed 
within the first few days. Not only did the workgroup identify 
a lack of capacity to deal with this volume, it also 
highlighted a lack of competency due to a lack of laboratory 
analytical methods specific for emergency response needs, 
reduction in radiochemistry expertise due to retirements, lack 
of formal training programs for radioanalytical labs, and 
reduction in federal radiological proficiency testing programs.
    We no longer have the luxury not to maintain this capacity, 
and I look forward to the testimony today.
    [The prepared statement of Mr. Sensenbrenner follows:]
    Prepared Statement of Representative F. James Sensenbrenner, Jr.
    The potential for radiological accidents or attacks is a reality we 
need to prepare for. In a June 2005, The Department of Homeland 
Security (DHS) released a Technology Assessment and Roadmap for the 
Emergency Radiation Dose Assessment Program (known as ERDAP). Two years 
ago, the assessment found that:

         Tools to rapidly triage individuals needing medical attention 
        and to intelligently direct medical treatment to those needing 
        immediate care will optimize the use of scarce resources, 
        improve survival, and enhance public confidence in government.

    Today, these tools still do not exist. Following a radiological 
incident, there is a critical need to determine who has been affected 
and to what degree. Rapid radiological dose assessment is critical for 
determining who needs treatment and what treatment is needed. As ERDAP 
found, ``lives may be saved if we can develop rapid dose assessment and 
can implement earlier treatment.''
    Despite this critical need, we are still suffering from a clear 
technology gap. Validated methods for testing in a radiological 
emergency exist for only six of the CDC's 13 highest priority 
radioisotopes most likely to be used in a terrorist scenario. And for 
those isotopes where screening methods do exist, screening the number 
of individuals likely to be exposed in a terrorist attack could take 
years.
    Real world radiological incidents should be instructive. The most 
recent example was the Polonium-210 poisoning in London that killed KGB 
agent Vladimir Litvinenko. The CDC estimated that 160 Americans were 
potential exposed to radiation. When it attempted to test these 
individuals it found that there was only one laboratory in the country 
capable of carrying out the test and it only had the capacity to test a 
handful of people per day.
    A radiological incident in an urban area could result in much 
greater exposure. In 1987, in Goiania, Brazil, a small source of 
cesium-137 was stolen from an abandoned radiotherapy institute. By the 
time the material was recognized as dangerous 15 days later, four 
people were dead and hundreds were injured by internal contamination. 
Over 100,000 people had to be examined for radiological contamination, 
topsoil had to be removed from several sites, and several houses were 
demolished.
    Neither of these incidents originated with an intentional effort to 
spread contamination. The scale of an actual radiological attack would 
likely be greater still.
    In its report titled, Creation of a National Radioanalytical 
Laboratory Response Network, the Integrated Consortium of Laboratory 
Networks (ICLN) work group found that, in the case of a radiological 
dispersion device, or dirty bomb, in an urban district, 350,000 
environmental samples would need to be collected over 12 months and 
more than 100,000 clinical samples would need to be collected, 
analyzed, and processed within the first few days. Not only did the 
work group identify a lack of capacity to deal with this volume, it 
also highlighted a lack of competency due to: a lack of laboratory 
analytical methods specific for emergency response needs, reduction in 
radiochemistry expertise due to retirements, lack of formal training 
programs for radioanalytical labs, and reduction in federal 
radiological proficiency testing programs.
    We no longer have the luxury to not maintain this capacity. I look 
forward to hearing from today's witnesses about how these capacity and 
competency gaps can be addressed.

    Chairman Miller. Thank you. There will be a recession 
following the hearing to celebrate Mr. Sensenbrenner's and my 
agreement.
    If there are any Members who wish to submit additional 
opening statements which seems unlikely since no one else is 
here, their statements will be added to the record.
    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Mr. Chairman, I appreciate the Subcommittee looking into this issue 
today, as our nation's preparedness in the event of a radiological 
emergency is of the utmost importance. In a post-9-11 era, constant 
examination of many of our emergency response procedures is critical, 
given what is at stake if a radiological attack were to take place.
    A central question that must be addressed is how to better prepare 
for an emergency given our current limited capacity to test for 
internal radioactive exposure? The technology already exists to test 
victims in the event of a radiological attack, but not enough 
laboratories are equipped to handle a large volume of samples. In the 
most common general scenario given, if Chicago were to be attacked and 
100,000 samples were sent for testing, it would take more than four 
years to see the results.
    I look forward to learning more about the possibilities for 
increasing laboratory capacity, working in conjunction with the CDC, 
EPA and DOE.
    Mr. Chairman, I'd like to commend you for calling this hearing so 
we can better examine our nation's preparedness level in the case of a 
radiological attack. Staying prepared in the event of all types of 
emergencies is an enormous task, and this hearing is a step in the 
right direction.

    Chairman Miller. I will now introduce the witnesses. Dr. 
John Griggs is the Chief of the Monitoring and Analytical 
Services Branch of the United States Environmental Protection 
Agency's National Air and Radiation Environmental Laboratory, 
NAREL, Office of Radiation and Indoor Air. I hope you don't 
have to say your whole title very often. He is the Co-Chair of 
the Integrated Consortium of Laboratory Networks, ICLN, 
Radiological Laboratory Response Group. With Dr. Griggs is Ms. 
Dana Tulis, Deputy Director of the Office of Emergency 
Management at the Environmental Protection Agency. Ms. Tulis 
will read a joint statement for herself and Dr. Griggs. Dr. 
Robert Hadley is from the Lawrence Livermore National 
Laboratory at the Department of Energy. Dr. Hadley is the 
current Chair of the Federal Radiological Monitoring and 
Assessment Center's, FRMAC, Laboratory Analysis Working Group 
and was formerly the Chair FRMAC Health and Safety Working 
Group. Dr. Robert L. Jones is the Chief of Inorganic Toxicology 
and Radionuclide Labs at the Center for Disease Control and 
Prevention. He is the Co-Chair of the Integrated Consortium of 
Laboratory Networks, ICLN, Radiological Laboratory Response 
Group, and head of the CDC's Polonium-210 response efforts last 
year. And unfortunately, Dr. Randy Long who chairs the 
Integrated Consortium of Laboratory Networks for the Department 
of Homeland Security was supposed to testify today, had a 
severe medical problem yesterday with a knee which presumably 
is not life-threatening, although perhaps painful and annoying, 
and is not able to be with us today. We hope he is up and about 
soon, but Dr. John Vitko, Director of the Chemistry and 
Biological Security Division at DHS has graciously agreed to 
read Dr. Long's prepared testimony into the record.
    As all of your know, your full written statement will be 
placed in the record and your oral testimony is limited to five 
minutes each. We aren't real strict with that, but try to pay 
some attention when you see the red light go on. It is also the 
practice of the Subcommittee to take testimony under oath. I 
did not really anticipate there would be any perjured testimony 
today, but it is under oath. Do any of you have any objection 
to being sworn in? You also have a right to be represented by 
counsel. We just ask you these questions to put you ease. Are 
any of you represented by counsel today? If you would then 
please stand and raise your right hand. Do you swear to tell 
the truth and nothing but the truth?
    Ms. Tulis, you may begin.

STATEMENT OF MS. DANA TULIS, DEPUTY OFFICE DIRECTOR, OFFICE OF 
   EMERGENCY MANAGEMENT, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. Tulis.
    Good morning. Mr. Chairman and Members of the Subcommittee, 
I am Dana Tulis, the Deputy Office Director for the Office of 
Emergency Management. I appreciate the opportunity to discuss 
the status of EPA's efforts to assess environmental 
radioanalytical laboratory capability and capacity for 
radiological response. I would also like to share with you some 
of the other activities EPA has underway to protect the Nation 
in the event of an accidental or intentional release of 
radiological material.
    I am accompanied today by John Griggs, Chief of the 
Monitoring and Analytical Services Branch for EPA's National 
Air and Radiation Environmental Lab, NAREL. I will summarize my 
remarks, but I do ask that my entire written testimony, as you 
stated, be submitted for the record.
    EPA, working with the Departments of Homeland Security, 
Energy, Health and Human Services, and others, has identified a 
considerable gap in national environmental radiological 
laboratory capacity for responding to terrorist incidents 
involving radiological contamination. In the event of such an 
event fixed laboratories will serve as a critical source of 
high-quality data to support incident response. Data from fixed 
environmental radiological laboratories will be particularly 
critical during consequence management activities such as 
decontamination and clearance efforts, and restore any critical 
infrastructure, such as ensuring the safety of our drinking 
water.
    Under the National Response Plan's, NRP, Nuclear/
Radiological Incident Annex, the Department of Energy 
coordinates radiological monitoring and assessment activities 
for the initial phases of a response to a radiological incident 
via the FRMAC, as you know, the Federal Radiological Monitoring 
and Assessment Center. After the immediate emergency condition 
of an incident is stabilized as well as other criteria, the 
FRMAC leadership is transferred to the Environmental Protection 
Agency.
    Throughout the response effort, however, EPA provides 
resources for defining and delineating the environmental impact 
of the radiological incident. EPA brings to bear both personnel 
and equipment to this mission, including 250 on-scene 
coordinators and our special teams under the National Oil and 
Hazardous Substances National Contingency Plan.
    EPA's NRP responsibilities include maintaining and 
enhancing the Nation's most comprehensive ambient radiation 
monitoring network called RadNet, which consists in part of 50 
stationary and 40 portable near-real time air monitors. The 
stationary real-time monitors collect a beta and gamma spectrum 
of particulates on an air filter hourly, and transmit data to 
the NAREL for further analysis. The portable monitors collect 
ambient gamma radiation readings as well as air filters which 
can also be sent to a laboratory for further specific analyses.
    Under the NRP, EPA has responsibility to lead the cleanup 
and recovery phase of a radiological incident for which no 
other department or agency has that responsibility, and that 
does include terrorist incidents such as a dirty bomb. EPA will 
use the Protected Action Guides for dealing with long-term site 
restoration following a major radiological release to help 
State and local authorities make protective action decisions. 
Through training, research, development and technical support 
activities, EPA continues to increase the agency's 
preparedness, and its response and recovery capabilities for 
chemical, biological as well as radiological incidents.
    In April 2004, the White House released Homeland Security 
Presidential Directive Number 10. To fulfill our 
responsibilities under HSPD-10, EPA is establishing an all-
media, such as soil, water, and air, environmental Laboratory 
Response Network (eLRN) to address environmental laboratory 
analytical gaps for chemical warfare, biological and 
radiological agents. The eLRN is leverage existing networks and 
capabilities, and will upgrade and expand additional 
capabilities to ensure EPA has sufficient capability and 
capacity to meet its responsibilities for an incident. EPA has 
also begun a demonstration study aimed at improving 
environmental radiological laboratory capacity through 
enhancing State laboratories and is developing tools to enhance 
the capacity of commercial laboratories as well.
    However, EPA's analysis of the Nation's existing 
environmental radiological laboratory capacity relative to 
demand from only a single dirty bomb or radiological dispersal 
device (RDD) in a major urban business district does reveal 
significant laboratory gaps. As you know, the gap is based upon 
the Homeland Security's Planning Scenario #11 which we 
evaluated which actually was for three major urban business 
districts. However, our peak shortfall for just one RDD is 
approximately 7,000 to 9,000 samples per week with an average 
shortfall of 3,000 samples per week. This gap will result in a 
lack of timely, reliable, and interpretable data which will 
delay national and local response as well as consequent 
management activities. We estimate about two years for those 
type of analyses.
    In closing, I want to assure the Committee that EPA will 
continue to work closely with our other federal agencies via 
the DHS-sponsored radiological laboratory working group, and 
with states to enhance national radioanalytical capability and 
capacity to start to fill this environmental laboratory gap and 
to maintain readiness to meet our responsibilities in the event 
of an accidental or intentional release of radiological or 
nuclear material.
    Mr. Chairman, that concludes my prepared remarks. Myself 
and Dr. Griggs would be very pleased to answer any of your 
questions that you or the Subcommittee Members may have. Thank 
you.
    [The prepared statement of Ms. Tulis follows:]
                    Prepared Statement of Dana Tulis
    Good morning. Mr. Chairman and Members of the Committee, I am Dana 
Tulis, Deputy Office Director for the Office of Emergency Management at 
the U.S. Environmental Protection Agency (EPA). I appreciate the 
opportunity to discuss the status of EPA's efforts to assess 
environmental radioanalytical capability and capacity in radiological 
response. I would also like to share with you broader activities EPA 
has underway to protect the Nation in the event of an accidental or 
intentional release of radiological material.

ROLE OF ENVIRONMENTAL RADIOANALYTICAL LABORATORIES IN RADIOLOGICAL 
                    RESPONSE

    In the event of a radiological or nuclear Incident of National 
Significance (INS), fixed environmental radiological laboratories will 
serve as a critical source of high quality and interpretable data to 
support incident response and consequence management activities. When 
EPA responds to radiological incidents, it is essential that the 
environmental radiological laboratories, whether federal, State, or 
commercial, that conduct analyses on environmental samples meet EPA's 
standards for stringent accuracy and quality control. The fixed 
laboratories must have the capability of analyzing for the broadest 
possible range of radiological contaminants while achieving the most 
sensitive measurements in terms of detection capabilities. Data from 
fixed environmental radiological laboratories will be particularly 
critical during consequence management activities such as 
decontamination and clearance efforts, and will be used to make long-
term decisions to protect the public from radiological contamination, 
and to restore any affected critical infrastructure and key resources, 
such as ensuring the safety of our drinking water.

NATIONAL RESPONSE PLAN: EPA'S RADIOLOGICAL EMERGENCY RESPONSE 
                    RESPONSIBILITY

    Under the National Response Plan's (NRP's) Nuclear/Radiological 
Incident Annex, the Department of Energy (DOE) coordinates radiological 
monitoring and assessment activities for the initial phases of a 
response to a radiological incident. DOE coordinates federal 
radiological environmental monitoring and assessment activities as the 
lead technical organization in what is known as the Federal 
Radiological Monitoring and Assessment Center or the ``FRMAC.'' The 
FRMAC is an interagency organization with representatives from various 
federal, State, and local radiological response organizations. The 
FRMAC provides an operational framework for coordinating all federal 
radiological monitoring and assessment activities during a response to 
support the Federal Coordinating Agency, State(s), local, and/or tribal 
governments. In the event of a Presidentially-declared major disaster 
or emergency, the FRMAC also provides its information to the Federal 
Emergency Management Agency's (FEMA's) Federal Coordinating Officer to 
assure appropriate and adequate additional resources are available for 
the State and local authorities to draw upon. The FRMAC works with the 
Interagency Modeling and Atmospheric Assessment Center, or IMAAC, to 
produce predictive plots of plume dispersion and dose rates and 
collects radiological monitoring data. It develops radiation contours 
showing where contamination is located and the associated radiation 
levels, which are used to recommend appropriate protective actions.
    FRMAC leadership responsibility, and leadership of federal 
radiological environmental monitoring and assessment activities, is 
transferred to EPA per the Nuclear/Radiological Incident Annex to the 
NRP, at a mutually agreeable time, and after consultation with the 
Department of Homeland Security (DHS) and its coordination entities, as 
well as State, local, and tribal governments. The following conditions 
are intended to be met prior to transfer:

          The immediate emergency condition is stabilized;

          Off-site releases of radioactive material have ceased, and 
        there is little or no potential for further unintentional off-
        site releases;

          The off-site radiological conditions are characterized and 
        the immediate consequences are assessed;

          An initial long-range monitoring plan has been developed in 
        conjunction with the affected State, local, and tribal 
        governments and appropriate federal agencies; and

          EPA has received adequate assurances from the other federal 
        agencies that the required resources, personnel, and funds are 
        available for the duration of the federal response.

    When the FRMAC is transferred to EPA, EPA assumes responsibility 
for coordination of radiological monitoring and assessment activities.

EPA'S PERSONNEL AND EQUIPMENT RESOURCES

    Throughout the response effort, however, EPA provides resources for 
defining and delineating the environmental impact of the radiological 
incident, whether under DOE leadership or EPA leadership, and uses 
these resources to carry out its mission and NRP responsibilities. 
These responsibilities encompass maintaining personnel and asset 
readiness for radiological emergency responses, which include 
participating in emergency response situations and providing technical 
expertise and support. EPA brings to bear both personnel and equipment 
to this mission, including 250 On-Scene Coordinators and its Special 
Teams under the National Oil and Hazardous Substances National 
Contingency Plan such as the National Decontamination Team (NDT), the 
Radiological Emergency Response Team (RERT), the Environmental Response 
Team (ERT), and the National Counter Terrorism Evidence Response Team 
(NCERT) which each bring specialized personnel and equipment, and the 
expertise gained every day in protecting human health and the 
environment. More specifically, the RERT has up to 50 people who can be 
deployed to the field or a support role and the NDT has 15 people who 
are available for deployment. Altogether EPA has approximately 350 
personnel for emergency responses and is also building a Response 
Support Corps to expand our response capability. The Agency's radiation 
health and safety and detection equipment assets run the gamut from 
approximately 300 personnel dosimeters to measure dose to protect 
response personnel to more than 200 pieces of emergency response/
assessment equipment to detect alpha, beta, or gamma radiation, 
depending on the equipment, in different environmental matrices. 
Equipment also includes mobile laboratories, a scanner van, and field 
based equipment that can identify specific gamma sources.
    In addition to personnel and assets, EPA's NRP responsibilities 
include maintaining and enhancing the Nation's most comprehensive 
ambient radiation monitoring network named RadNet, which currently 
consists of 50 stationary and 40 portable near-real time air monitors, 
40 additional non-real time air monitors, milk collection at 37 
locations, drinking water collection at 77 locations and precipitation 
collection at 44 locations. The stationary near real-time monitors 
collect a beta and gamma spectrum of the particulates on an air filter 
hourly, and transmit data to the National Air and Radiation 
Environmental Laboratory (NAREL), where radionuclide specific 
determinations can be quickly made. The portable monitors collect 
ambient gamma radiation readings through the use of air filters which 
can be sent to a laboratory for radionuclide specific analyses.

GUIDANCE FOR RADIATION RESPONSES

    EPA has worked closely with DHS and our other federal partners to 
ensure that the Protective Action Guidelines, or PAGs that can be 
applied to almost any radiological or nuclear incident, including 
radiation dispersal devices (dirty bombs). EPA has developed PAGs, 
which suggest precautions that can be taken to keep people from 
receiving an amount of radiation that might be dangerous to their 
health. The PAGs are decision levels to help State and local 
authorities make protective action decisions during emergencies, and 
should be applied using incident-specific information. Users of PAGs 
may include hazardous materials teams, emergency managers, anyone 
working on terrorism preparedness, and nuclear power plant communities.
    The PAGs Manual, which EPA issued in 1992, presented guidance for 
the early or emergency phase e.g., first four days, and intermediate 
phase, e.g., source is controlled and field data become available, of a 
response to primarily nuclear power plant accidents. A revision is 
underway that addresses all radiological incidents such as a terrorist 
use of a dirty bomb, and incorporates DHS' guidance for dealing with 
long-term site restoration following a major radiological release. The 
DHS guidance does not recommend pre-established numerical guidelines 
for cleanup levels because of the broad range of potential impacts that 
may occur.
    Instead, it proposes an optimization process in which potential 
actions to reduce radiation dose are evaluated, and the benefits of 
each are then compared to the detriments of the action. We have also 
developed guidance for Agency personnel on radiation turn-back levels. 
Turn-back levels help incident responders know how far they can go into 
a radiation area; they are exposure rates and dose limits which when 
met require responders to turn back and seek further guidance. The 
levels we developed are specific to EPA's mission and capabilities, and 
we recommend that other organizations develop their own.
    Under the NRP, EPA has responsibility to lead the cleanup and 
recovery phase of a radiological incident for which no other department 
or agency has responsibility, including terrorist incidents such as a 
dirty bomb. Through training, research, development and technical 
support activities, EPA continues to increase its preparedness, and its 
response and recovery capabilities for chemical, biological or 
radiological incidents that threaten homeland security. The Agency 
continues to assemble and evaluate private sector tools and 
capabilities to ensure effective response approaches can be identified 
and evaluated for future first responders, decision-makers, and the 
public to use. EPA continues to work with federal institutions and 
other organizations through collaborative research efforts to 
strengthen decontamination capabilities. EPA promotes improved response 
capabilities across government and industry in areas where EPA has 
unique knowledge and expertise. In the area of environmental laboratory 
capabilities and capacity, EPA has begun a demonstration study aimed at 
improving national radiological laboratory capacity through enhancing 
State laboratories and is developing tools to enhance capacity of 
commercial laboratories throughout the United States.

HIGHLIGHTS OF ``ASSESSMENT OF NATIONAL ENVIRONMENTAL RADIOLOGICAL 
                    LABORATORY CAPACITY GAP''

    In April 2004, the White House released Homeland Security 
Presidential Directive Number 10 (HSPD-10). This directive requires EPA 
to determine the nationwide laboratory capacity required to support 
environmental decontamination of chemical, biological, and 
radiochemical-nuclear agents by reviewing federal, State, local, and 
private laboratory capabilities specifically related to environmental 
sampling and testing and to ensure evidentiary considerations. To 
respond to HSPD-10 requirements, EPA is establishing an all media, 
e.g., soil, air, and water, environmental Laboratory Response Network 
(eLRN) to address environmental laboratory analytical gaps for chemical 
warfare, biological and radiological agents. The eLRN will leverage 
existing laboratory networks and capabilities, and upgrade and expand 
additional capabilities to ensure that EPA has sufficient capacity and 
capability to meet its responsibilities for an INS, such as a terrorist 
attack involving radiological or nuclear materials. In order to 
determine the national environmental radiological laboratory capacity 
needs associated with an INS involving radiochemical or nuclear agents, 
EPA conducted an assessment of the environmental sample demand for the 
White House Homeland Security Council's Planning Scenario #11 which 
involves the detonation of Radiological Dispersal Devices (RDD) in 
three major urban business districts.
    The results of the assessment of the sample demand and estimates of 
the existing nationwide environmental radiological laboratory capacity 
are summarized in EPA's draft document entitled Assessment of National 
Environmental Radiological Laboratory Capacity Gap. The estimated 
sample demand resulting from a single RDD event is approximately 
360,000 samples over a one-year period. This estimate equates to an 
average sample demand of approximately 7,000 to 8,000 samples per week 
over 52 weeks and a peak sample demand of 13,000 to 15,000 samples per 
week. These numbers do not include the quality control analyses the 
laboratories will perform in conjunction with the samples which 
contribute to the overall analysis demands on the laboratories' 
personnel. EPA's analysis of the Nation's existing radiological 
laboratory capacity relative to the estimated sample demand from the 
RDD scenario reveals a significant laboratory capacity gap with an 
estimated peak capacity shortfall of approximately 7,000 to 9,000 
samples per week and an estimated average capacity shortfall of 
approximately 3,000 samples per week. This gap will result in a lack of 
timely, reliable, and interpretable data which will delay national and 
local response and consequence management activities.
    It should be noted that this gap is based on a single RDD event in 
which the source is a single radionuclide which is among the most 
straightforward to measure from a laboratory perspective. An RDD event 
with a more complex source--multiple, more difficult to analyze 
radionuclides, multiple RDD events as described in Planning Scenario 
11, or multiple RDD events with different radiation sources would 
result in an even larger capacity gap. Although EPA has not conducted a 
detailed assessment, a limited analysis of an improvised nuclear device 
(IND) scenario indicates a contamination area of approximately 3,000 
square miles, and a laboratory capacity gap with potentially millions 
of laboratory analyses required.
    In addition to the capacity gap, EPA's national environmental 
radiological gap assessment also revealed capability and competency 
gaps. The capability gap relative to laboratory incident response is 
largely due to a lack of ``tools'' like rapid radiochemical methods and 
laboratory protocols specifically designed for response to radiological 
or nuclear incident.
    The competency gap is due to an overall national declining 
infrastructure for radiological laboratories due to a number of factors 
including: reduction of personnel with radiochemistry expertise without 
adequate replacements; lack of formal training programs for 
radiological laboratory personnel; and a reduction in federal 
radiological proficiency testing (PT) programs.

LESSONS LEARNED FROM PREVIOUS RADIOLOGICAL CONTAMINATION INCIDENTS

    EPA works continuously with federal, State, and private sector 
emergency preparedness and response communities to ensure that lessons 
learned from incidents such as the 1987 Goiania incident in Brazil and 
the more recent Polonium-210 murder in the United Kingdom are 
integrated into the Nation's preparedness efforts. While the Goiania 
and London incidents provided numerous lessons of potential relevance 
to a dirty bomb response, it should be remembered that neither actually 
originated as an intentional effort to spread contamination throughout 
a densely populated area. In fact, environmental contamination was an 
unintended consequence. Thus, the scale of these two incidents, in 
particular, needs to be assessed carefully with respect to intentional 
efforts to harm the Nation's people and economy by spreading 
radiological contamination.
    However, these and other incidents have taught us that there are a 
number of critical aspects in responding to radiological contamination. 
The Protective Action Guides must be accepted and understood prior to 
an incident. Adequate field personnel and instruments are needed to 
detect, identify and quantify the radioactive material. Extensive field 
and fixed laboratory capacity and capability will be needed to analyze 
the many air, water, soil and food samples that will be used to 
determine public protective measures.

ROLE IN TOPOFF IV

    EPA participation in the DHS-led TOPOFF IV was extensive. EPA 
deployed over 250 participants to the three exercise venues--Portland, 
Oregon; Mesa, Arizona; and Guam. Participants included EPA's On-Scene 
Coordinators, members of our four special teams, the Radiological 
Emergency Response Team (RERT), Environmental Response Team (ERT), 
National Decontamination Team (NDT), and the National Counterterrorism 
Evidence Response Tem (NCERT), as well as personnel from headquarters 
and EPA's regional offices. We also deployed monitoring and analytical 
equipment such as our mobile radiation laboratory. Additionally, the 
EPA Emergency Operations Center was staffed and EPA participated in 
various interagency coordination and support entities, such as the 
Domestic Emergency Support Team (DEST), the Incident Management 
Planning Team (IMPT), and the National Response Coordination Center 
(NRCC). EPA personnel filled critical positions within FRMAC, working 
in support of DOE, DHS, and the affected State and local governments to 
assess potential contamination. EPA staff also served as controllers 
and evaluators at the various exercise venues.
    At the time this testimony was submitted to the Committee on 
Science and Technology, the TOPOFF IV counterterrorism exercise had 
just concluded, and the federal community is still working to analyze 
the exercise and develop conclusions. In addition to the functional 
exercise, TOPOFF IV includes a Long-Term Recovery table top exercise, 
which will occur in December 2007. During this exercise, we expect to 
discuss the role of environmental laboratories in supporting the 
recovery phase. DHS will publish a final report that will provide a 
summary of conclusions, and we will be happy to provide you with 
additional information in the future.
    However, it should be noted that the primary exercise venue, in 
Portland, Oregon, emphasized the initial emergency response activities 
rather than the extended recovery phase during which the majority of 
fixed laboratory samples will be analyzed. As noted earlier in my 
testimony, the spread of radiological contamination from multiple 
events such as in Portland, Phoenix and Guam would require more 
laboratory analyses than the assessment of capacity and capability done 
to date, which assumed a single RDD event.

CONCLUSION

    We appreciate the Committee's interest in examining national 
radioanalytical laboratory capability and capacity to support 
radiological response and the opportunity to update you on the status 
of EPA's other efforts in the area of radiological response. We 
understand that radioanalytical capacity is a key component of a multi-
faceted radiological response in an environment of declining 
radiochemistry infrastructure. EPA is working closely with other 
federal agencies via the DHS-sponsored Radiological Laboratory Working 
Group and with states to enhance national environmental radioanalytical 
capacity to maintain readiness to meet our responsibilities in the 
event of an accidental or intentional release of radiological or 
nuclear material.

    Chairman Miller. Thank you. Dr. Hadley.

      STATEMENT OF DR. ROBERT T. HADLEY, CHAIR OF FEDERAL 
  RADIOLOGICAL MONITORING AND ASSESSMENT CENTER'S LABORATORY, 
ANALYSIS WORKING GROUP, LAWRENCE LIVERMORE NATIONAL LABORATORY, 
                   U.S. DEPARTMENT OF ENERGY

    Dr. Hadley. Thank you, Mr. Chairman and Members of the 
Subcommittee. I am honored to have the opportunity to testify 
here today as a subject matter expert about radioanalytical 
laboratory issues. I am a certified industrial hygienist and 
health physicist from Lawrence Livermore National Laboratory 
with over 25 years in nuclear emergency response management, 
and I currently serve as the Chair of the Federal Radiological 
Monitoring and Assessment Center, or FRMAC, Laboratory Analysis 
Working Group.
    We all recognize that a response to a radiological event 
will require many highly skilled professionals ranging from 
surveillance to response organizations and forensics. My 
remarks today are confined to my role as part of the FRMAC.
    The FRMAC is part of the Nuclear Incident Response Team 
maintained by DOE can be activated by the Department of 
Homeland security in response to a nuclear or radiological 
incident. The purpose of the FRMAC is to provide a clear 
operating picture of radiological conditions in the field to 
responders for decision-making and incident action planning. 
FRMAC data is critical for characterizing the exact nature and 
extent of contamination which supports public health and safety 
efforts. FRMAC provides verified radiation measurements and 
characterization of overall radiological conditions. FRMAC 
measurements are utilized by the National Atmospheric Release 
Advisory Center located at Lawrence Livermore to provide an 
accurate and complete picture of the radioactive footprint. 
This information can help guide crop and food field sampling 
teams to areas where contamination might result in an ingestion 
pathway dose that exceeds health and safety limits.
    FRMAC provides procedures for sample collection and 
analysis to all participating agencies. We work closely with 
CDC, EPA, and State and local responders. FRMAC also provides 
live and web-based instructions and participate in national and 
regional level exercises.
    I participated as part of the FRMAC team in the recent the 
TOPOFF-4 exercise, at the Portland, Oregon venue. I was the 
senior radiological data controller at the event scene, and my 
responsibilities included providing radiological exposure and 
contamination measurements to federal, State, and local 
responders and other government officials including the FBI. 
During the first day, most of the radiological data involved 
direct reading instruments that provide immediate results.
    FRMAC capabilities arrived and began operation on Day 2 and 
stayed through the end of the exercise period. FRMAC air 
sampling instruments were deployed within and around the 
contaminated area and collection of soil, plant, water, and air 
samples began. This data was used to determine the size of the 
contaminated area and provide health and safety information to 
local residence. FRMAC established a liaison at the Joint Field 
Office, and the FRMAC Web Portal was utilized to disseminate 
information to approved users at all levels of government. The 
interagency FRMAC team was well-integrated and worked together 
to gather requirements and provided hazard information in a 
timely manner. Unfortunately, due to the short duration and 
field play, the full radioanalytical laboratory infrastructure 
was not exercised. It is my understanding that remediation and 
recovery requirements were in notional play during this the 
final week of TOPOFF.
    In June 2007, FRMAC released a draft analysis for the 
emergency phase of a response, typically the first 4 to 7 days. 
This is a critical period for addressing the health and safety 
of the public and responders. This document focuses on the 
federal resources activated to provide rapid support to the 
nuclear/radiological monitoring and dose assessment activities 
at the incident scene in accordance with the national response 
plan and nuclear and radiological incidence. It did not attempt 
to complete a comprehensive assessment of environmental and 
clinical laboratory resources that would be needed for the 
long-term environment remediation activities, medical response, 
and human health monitoring.
    All scenarios were addressed as a single event and included 
a nuclear explosion, radiological dispersal devices, and 
accidental or unintentional non-explosive release of 
radioactive materials. For the limited scope of the study, the 
document suggested that current fixed radioanalytical 
laboratory infrastructure could handle short duration 
environmental monitoring and dose assessment missions. These 
laboratories have not been integrated into an enduring national 
capability focused on the long-term analytical needs.
    Although the primary mission of the FRMAC is to evaluate 
environmental radiological data, FRMAC assets may also be 
called on to assist the Department of Health and Human Services 
with human clinical data. DOE has developed a cytogenetic 
dosimetry capability at Radiation Emergency Assistance Center 
Training Site in Oak Ridge, Tennessee, to evaluate radiation 
dose received based on blood samples collected from victims or 
responders. This capability was demonstrated during TOPOFF.
    This concludes my remarks, and thank you for the 
opportunity to address the Committee.
    [The prepared statement of Dr. Hadley follows:]
                 Prepared Statement of Robert T. Hadley
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify here today as a subject matter expert about 
radioanalytical laboratory issues. I am a Certified Industrial 
Hygienist and Health Physicist from Lawrence Livermore National 
Laboratory (LLNL) with over 25 years in nuclear emergency response 
management and currently serve as the Chair of the Federal Radiological 
Monitoring and Assessment Center (FRMAC) Laboratory Analysis Working 
Group. The FRMAC was formally established in 1979 following Three Mile 
Island. The FRMAC is an interagency effort and normally includes 
representation from the Department of Energy (DOE), Environmental 
Protection Agency (EPA), the Department of Commerce, the National 
Communications System, Department of Defense (DOD)/U.S. Army Corps of 
Engineers and other federal agencies as needed. Response to a 
radiological event will require many highly skilled professionals 
ranging from surveillance to response operations and forensics. 
Although LLNL's extensive scientific and technical expertise in nuclear 
materials behavior is routinely called upon to support many phases of 
the response activity, my remarks today are confined to my role as part 
of the FRMAC.
    Under the Homeland Security Act, DHS has the authority to activate 
the Nuclear Incident Response Team (NIRT), which consists of: (1) DOE 
entities that perform nuclear and/or radiological emergency support, 
and (2) EPA entities that perform such support functions (including 
radiological response functions) and related functions. The FRMAC is a 
NIRT asset maintained by DOE that is available on request to respond to 
nuclear/radiological incidents. The purpose of the FRMAC is to provide 
a clear operating picture of radiological conditions in the field to 
responders for decision-making and incident action planning; it 
provides radiation measurements, interpretations of radiation 
contamination distribution and overall characterization of the 
radiological conditions. DOE maintains the Aerial Measuring System as 
well as a land-based mobile laboratory that can be established at or 
near the incident site to enable close coordination with DHS and other 
federal, State and local response agencies.
    Upon activation, the FRMAC provides an operational framework for 
coordinating Federal, State, local and tribal government radiological 
monitoring and assessment activities during a response to a 
radiological emergency. The support the FRMAC provides includes:

        <bullet>  Coordinating federal radiological monitoring and 
        assessment activities

        <bullet>  Maintaining technical liaison with State and local 
        agencies with monitoring and assessment responsibilities

        <bullet>  Maintaining a common set of all radiological 
        monitoring data, in an accountable, secure, and retrievable 
        form, and ensuring the integrity of the FRMAC data

        <bullet>  Providing monitoring data and interpretations 
        including exposure rate contours, dose projections and any 
        other requested radiological assessments to DHS and other 
        federal, State and local response agencies

        <bullet>  Providing personnel and equipment needed to perform 
        radiological monitoring and assessment activities.

    FRMAC assist the states, local and tribal governments in their 
mission to protect the health and well-being of their citizens with 
verified radiation measurements, interpretations of radiation 
distributions based on federal and local guidelines, and 
characterization of overall radiological conditions. FRMAC data is 
critical for characterizing the exact nature of the contaminant and the 
extent of contamination, which, in turn, supports public health and 
safety efforts. Integration of measurements of radioactive 
contamination, airborne or on the ground, is particularly valuable in 
the early and intermediate phases of an event.
    FRMAC measurements are utilized by the National Atmospheric Release 
Advisory Center (NARAC) to provide a complete picture of the 
radioactive footprint. This technique can aid in helping guide crop and 
food field sampling teams to areas in which contamination might result 
in an ingestion pathway dose that exceeds regulatory limits.
    Plans and procedures for sample collection and analysis have been 
developed and made available to all participating federal, State, and 
local agencies. FRMAC works closely with Center for Disease Control 
(CDC), EPA, and the Radiation Emergency Assistance Center/Training Site 
(REACS/TS) to assist in the dissemination of information pertaining to 
public health emergencies, training, and exercise opportunities. FRMAC 
also provides live classroom instruction and web-based training venues. 
National level and regional exercises have been used to evaluate the 
FRMAC response.
    As an example of a National Level Exercise, I would like to explain 
how sample collection and laboratory analysis was exercised during the 
recent the TOPOFF-4 exercise, which was recently conducted. During this 
exercise, FRMAC participated in the full field exercise at the 
Portland, Oregon venue. I participated as the lead day-shift 
radiological data controller at the event scene. My responsibilities 
included providing radiological exposure and contamination measurements 
to Fire, Hazardous Materials (Hazmat), Radiological Assistance Program 
(RAP), Federal Bureau of Investigation (FBI), and all other responding 
teams.
    During the first day, most radiological data involved direct 
reading instruments that provide immediate results. Air samples were 
collected for laboratory analysis to evaluate airborne radioactivity 
that responders and the public may be breathing into their bodies, and 
to determine (using spectral data) the particular radioisotopes that 
were present. The spectral data received initial evaluation from 
locally deployed DOE Radiological Assistance Teams and/or local HAZMAT 
responders. Spectral data was also sent to DOE laboratories (usually 
LLNL, LANL or SNL) for confirmatory analysis. Air samples were sent to 
local environmental analysis laboratories (e.g., University of Oregon) 
for evaluation. Victims and casualties were evaluated for external 
contamination with direct reading instruments and then sent to 
hospitals for treatment and further clinical evaluation.
    FRMAC capability arrived and became operational at TOPOFF-4 on Day 
2 and stayed operational through the end of the exercise period. 
Additional air sampling instrumentation was deployed within and around 
the contaminated area and the collection of soil, water, and vegetation 
samples began. This data was used to determine the size of the 
contaminated area, whether occupants could return to their homes, and 
began addressing issues such as the safety of drinking water and local 
produce. FRMAC established a liaison at the Joint Field Office and 
products were provided to Oregon Emergency Managers and Incident 
Commanders, as well as Mayor of Portland and the city's incident 
commander. The FRMAC Web Portal was utilized to disseminate information 
to approved users at all levels of government, including DHS and DOE 
headquarters. The interagency FRMAC team was well-integrated and worked 
together to gather requirements and provide hazard information in a 
timely manner. Due to the short duration and field play for TOPOFF-4, 
only the mobile EPA laboratory from Las Vegas responded and the 
national radioanalytical laboratory infrastructure was not exercised. 
It is my understanding that remediation and recovery requirements were 
in notional play during the final week, including the hand-off of FRMAC 
leadership from DOE to EPA.
    In June 2007, the FRMAC released a draft document titled ``Mission 
Analysis--Emergency Phase, An Interagency Document for Implementing the 
National Response Plan Nuclear/Radiological Incident Annex.'' The 
purpose of this document was to define the overall federal radiological 
monitoring and dose assessment response to a nuclear or radiological 
incident as defined in the Nuclear Incident Annex to the National 
Response Plan in the ``Emergency Phase,'' typically the first three to 
seven days after the event. This is a critical period for addressing 
the health and safety of the public and responders.
    This document focused on the federal resources activated to provide 
rapid support to the nuclear/radiological monitoring and dose 
assessment activities at an incident site. While the report provided an 
initial compilation of personnel and equipment requirements for the 
environmental and dose assessment component of the emergency response, 
it did not attempt to complete a comprehensive assessment of 
environmental and clinical laboratory capabilities required for medical 
response and long-term environmental restoration activities.
    All scenarios were addressed as a single event. The following 
scenarios were considered:

        <bullet>  Domestic Nuclear Explosion (DNE)--A low technology, 
        low yield nuclear device detonated near ground level in a major 
        U.S. metropolitan area.

        <bullet>  Nuclear Power Plant Incident or Event Involving a 
        Significant Release

        <bullet>  Alpha Radiological Dispersal Device/Failed Improvised 
        Nuclear Device (IND)

        <bullet>  Beta Gamma Radiological Dispersal Device

    Scenarios not included in this document, but identified for future 
consideration include multiple simultaneous events, combined radiation/
chemical events, and combined radiation/biological events.
    The key findings included:

        <bullet>  Improved processes for electronic data processing

        <bullet>  Standardized internal communications (voice & data)

        <bullet>  Established guidelines for public monitoring support 
        and medical registry

        <bullet>  Additional personnel and equipment resources to 
        address the DNE scenario

    For the limited scope of this study, the document implies that 
current fixed radioanalytical laboratory infrastructure could handle 
short duration environmental monitoring and dose assessment missions, 
but these laboratories have not been integrated into an enduring 
national capability focused on the radiological contaminants.
    In addition, mobile radioanalytical laboratories belonging to DOE, 
the Environmental Protection Agency (EPA), the Department of Defense 
(DOD), and the States also respond as part of the FRMAC to evaluate 
priority samples in support of decision-making. These laboratories must 
be driven or flown to the incident site and often arrive a couple of 
days into the response. Plans and procedures have been developed for 
mobile response coordination. This planning and coordination was 
evaluated during the FRMAC Southern Crossing Exercise conducted in 
August 2006 in Dothan, Alabama.
    Although the primary mission of the FRMAC is to evaluate 
environmental radiological data, FRMAC assets may be called on to 
assist the Department of Health and Human Services with human clinical 
data. Specifically, DOE has developed a cytogenetic dosimetry 
capability at REAC/TS in Oak Ridge, Tennessee, to evaluate the 
radiation dose received based on blood samples collected from victims 
or responders. This capability was demonstrated at the TOPOFF-4 
Exercise. Similar capability exists in only a few other locations such 
as the Armed Force Radiobiology Research Institute (AFRRI) and sites in 
Canada and in France. The number of evaluations that can be 
simultaneously processed is limited. DOE maintains at its various sites 
the capability to evaluate internal ingestion or inhalation of 
radioisotopes using whole body counting, lung counting, and body fluid 
analyses. This capability is designed to handle situations involving 
DOE site activities and only a few individuals--not large public 
emergencies.
    Thank you, again, for the opportunity to address this committee.

                     Biography for Robert T. Hadley
M.S., Biophysics and Computing, University of Utah, 1980

B.S., Life Sciences, Massachusetts Institute of Technology, 1975

    Mr. Robb Hadley is a Certified Industrial Hygienist (CIH) and 
Health Physicist at the Lawrence Livermore National Laboratory in 
Livermore, California with over 25 years experience as a Nuclear 
Emergency Response Manager. Mr. Hadley currently serves as the Chair of 
the Federal Radiological Monitoring and Assessment Center (FRMAC) 
Laboratory Analysis Working Group.
    Before joining the Nuclear Incident Response Program in 1999, Mr. 
Hadley managed the LLNL Industrial Hygiene Group where he was 
responsible for a staff of 25 health and safety professionals.
    Mr. Hadley has participated in numerous national level exercises. 
He was the Lead Planner and control for the Diablo Bravo and Comanche 
Warrior exercises involving radiological incidents. He recently 
completed the TOPOFF-4 exercise as the Radiological Data Controller at 
the event scene. In this capacity his responsibilities included 
providing radiological exposure and contamination measurements to local 
responders, the Radiological Assistance Program, the Federal Bureau of 
Investigation (FBI), and other responding teams.
    Mr. Hadley has authored several DOE Site emergency and responder 
handbooks, guides and procedures. He is a regular participant in 
several emergency response technical working groups, including DOD/DOE 
Nuclear Weapons Accident Response Technical Working Group, the multi-
agency Population Monitoring Working Group, the Accident Response (ARG) 
Capability Coordinating Committee, the consequence Management 
Operations Working Group and the ARG Health and Safety Working Group.

    Chairman Miller. Thank you. Dr. Jones.

 STATEMENT OF DR. ROBERT L. JONES, ACTING CHIEF, INORGANIC AND 
RADIATION ANALYTICAL TOXICOLOGY BRANCH, DIVISION OF LABORATORY 
SCIENCES, NATIONAL CENTER FOR ENVIRONMENTAL HEALTH, CENTERS FOR 
 DISEASE CONTROL AND PREVENTION, U.S. DEPARTMENT OF HEALTH AND 
                         HUMAN SERVICES

    Dr. Jones. Good morning Mr. Chairman and Members of the 
Subcommittee. My name is Dr. Robert Jones, Acting Chief of the 
Inorganic Radiation and Analytical Toxicology Branch in the 
Division of Laboratory at CDC.
    I am pleased to be here today to discuss the role of 
clinical laboratories, and in particular, the role of CDC's 
radiation lab, in protecting the health of the American people 
in response to a radiological event.
    My testimony will address three issues. First, the 
essential laboratory information needed to respond to an event; 
second, the national laboratory capability for such a response; 
and third the potential methods to improve our ability to 
respond
    Following an event with uncontrolled radioactive material, 
such as a dirty bomb or terrorist nuclear attack, public health 
officials will need to answer four questions to guide their 
response: what were people exposed to or contaminated with, who 
was exposed, how much exposure or contamination did each person 
have, and did it enter the body? Contamination with 
radionuclides can be primarily internal, that is inside the 
body, primarily external, outside the body such as on clothing 
or hair, or contamination of both. The decision to medically 
treat people will depend on our ability to rapidly and 
accurately identify and quantify internal contamination. To 
direct appropriate medical treatment to the truly affected, we 
need new methods to rapidly and accurately assess internal 
contamination for a broad array of radionuclides.
    Nationwide the current laboratory capacity for measuring 
radionuclides in people in response to emergency is limited. 
Methods to measure radionuclides in urine must have four 
characteristics. First, they must be fast, with results 
available in a day or so; second, they must be able to process 
large numbers of samples per day to handle urine samples from 
many people involved; third, they will need to use a small 
amount of urine available from collecting a sample at a point 
in time; fourth, they must be able to identify and quantify 
different radionuclides likely to be used by terrorists. A few 
years ago, CDC recognized the gaps in current lab capacity for 
measuring radionuclides in an emergency event and took steps to 
begin developing a state-of-the-art urine radionuclide screen. 
To date, CDC has developed the scientific approach for the 
urine radionuclide screen using a combination of alpha, beta, 
and gamma radiation detection instruments and a specialized 
technique in mass spectrometry. Currently CDC has some limited 
capacity to measure six radionuclides in urine. Although our 
scientific approach is working well, considerable applied 
method development remains to be done.
    CDC's efforts to improve lab capacity to respond to a 
radiological event include a validated urine radionuclide 
screen, which is currently in development, which would provide 
results within 24 hours of receiving the sample. The CDC urine 
radionuclide screen would require only a point-in-time, small-
volume urine sample, no need for 24-hour collections, and the 
screen would identify and quantify 13 different priority 
radionuclides. When the urine radionuclide screen is ready for 
distribution, the CDC will consider how to build on the 
existing Laboratory Response Network, the LRN, a national 
network of local, State and federal public laboratories that 
provide the infrastructure and capacity to respond to public 
health emergencies, to establish surge capacity in public 
health laboratories for measuring people's exposure to a 
variety of radionuclides.
    The recent incident in London involving the death of a 
former Russian KGB agent from exposure to Polonium-210 
underscores the importance of having laboratory capability that 
can provide human exposure information.
    We found that only one laboratory, a commercial laboratory, 
that could analyze Polonium-210 in urine. This laboratory 
needed a 24-hour sample and typically required 30 days for 
analysis. For this emergency, the laboratory did the analyses 
in seven days. In summary, the Nation has a limited laboratory 
capability necessary to identify people who may be exposed to 
an event involving radioactive materials. This leads to a 
limited capability to provide patients, their doctors, and 
health departments with exposure information. Completing the 
radionuclide screen, developing the LRNR, and transferring the 
urine radionuclide screen to the LRNR laboratories are options 
to close these gaps.
    Mr. Chairman, this concludes my prepared statement. I would 
be happy to respond to any questions that you or the Members of 
the Subcommittee may have.
    [The prepared statement of Dr. Jones follows:]
                 Prepared Statement of Robert L. Jones
    Good morning Mr. Chairman and Members of the Subcommittee.
    My name is Dr. Robert Jones, and I am Acting Chief of the Inorganic 
Radiation and Analytical Toxicology Branch in the Division of 
Laboratory Sciences of the National Center for Environmental Health at 
the Centers for Disease Control and Prevention (CDC).
    Thank you for the opportunity to be here today to discuss the role 
of clinical laboratories, and in particular, the role of CDC's 
radiation laboratory, in protecting the health of the American people 
in response to an event involving radioactive materials.
    I will first discuss the essential laboratory information that is 
needed to respond to these events, focusing on the assessment of 
internal contamination with radioactive materials. Then I will describe 
the current estimate of the national laboratory capability for such a 
response and potential methods to improve our ability across the Nation 
to respond to an event. I also will address CDC's efforts to monitor 
and assess the potential exposure of U.S. citizens during an incident 
in the United Kingdom that resulted in the death of a former Russian 
KGB agent from Polonium-210. I also will describe briefly CDC's 
capabilities and readiness to meet emergency response needs under the 
Nuclear/Radiological Annex of the National Response Plan; and finally, 
I will touch briefly on our laboratory's role in the just-completed 
TOPOFF-4 counterterrorism exercise.

Laboratory Public Health Response

    Information Needed Following a Radiation Event: Following an event 
with uncontrolled radioactive material, such as a dirty bomb or 
terrorist nuclear attack, public health officials need to answer three 
questions to guide their response: what were people exposed to or 
contaminated with, who was exposed or contaminated, how much exposure 
or contamination did each person have, and did it enter the body? 
Contamination can be primarily internal (that is, inside the body), 
primarily external (outside the body), or a combination of both. Hand-
held radiation detectors, like Geiger counters, generally are used for 
assessing externally deposited contamination by certain radioactive 
materials and are useful for prioritizing people for external 
decontamination. These detectors can be used to assess internal 
contamination in some specific cases.
    Internal contamination cannot be reliably quantified by clinical 
assessment of early symptoms. The decision to medically treat people 
will depend on our ability to rapidly and accurately identify and 
quantify internal contamination. To direct appropriate medical 
treatment to the truly affected, we need a method to rapidly and 
accurately assess internal contamination for a broad array of 
radionuclides. The new methods for measurement of radionuclides in 
urine are being developed to meet this need for internal contamination 
and dose assessment.
    Current Laboratory Capabilities for Internal Contamination: In the 
event of a radiological incident, our ability to effectively respond to 
the health needs of our citizens will depend on the methods we have in 
place to measure radionuclides in urine. These methods must have four 
essential characteristics: first, they must be fast, with results 
available in a day or so; second, they must be able to process large 
numbers of samples per day to handle urine samples from the many people 
involved; third, they need to use a small amount of urine available 
from collecting a sample at one point in time; and fourth, they must be 
able to identify and quantify the various radionuclides likely to be 
used by terrorists.
    Nationwide, the current laboratory capability for measuring 
radionuclides in people in response to an emergency is limited. 
Currently available methods for measuring radionuclides in urine, and 
our national capacity to do so, are limited. Right now, the methods are 
slow; it typically takes five to 30 days to obtain a urine radionuclide 
measurement. The number of samples that can be processed per day is 
low--the few labs that can measure urinary radionuclides typically 
process fewer than 20 samples per day. Urine volume requirements are 
high--about half a gallon of urine, usually comprising a patient's 
entire urine output for a 24-hour period. Finally, we currently have 
validated analytic methods to measure only a few of the radionuclides 
of concern.
    CDC recognized this gap a few years ago and took steps to begin 
developing a state-of-the-art Urine Radionuclide Screen. To date, CDC 
has developed the scientific approach for the Urine Radionuclide Screen 
using a combination of radiation-detection instruments that detect the 
three types of radiation, alpha, beta, and gamma, and a specialized 
technique in mass spectrometry. CDC currently has some limited capacity 
to measure five radionuclides in urine. Although our scientific 
approach is working well, considerable applied method development 
remains to be done.
    A radiological event is one of many threats for which the Nation 
must prepare. At CDC, our all hazards approach to preparedness also 
includes preparation for chemical and biological events, as well as 
natural disasters. The challenges I have cited in our current lab 
capacity to respond to a radiological event must be balanced with the 
need to prepare for other public health emergencies.
    Efforts to Improve Capabilities for Internal Dose Assessment: CDC 
efforts to improve lab capacity to respond to a radiological event 
include:

        1)  The development of a validated Urine Radionuclide Screen, 
        which would provide results within 24 hours of receiving the 
        sample. The CDC Urine Radionuclide Screen, which is currently 
        under development, would require only a point-in-time, small-
        volume urine sample--no need for 24-hour collections--and the 
        Screen would identify and quantify 13 different priority 
        radionuclides.

        2)  When the Urine Radionuclide Screen is ready for 
        distribution, the CDC will consider how to build on the 
        existing Laboratory Response Network (LRN), a national network 
        of local, State and federal public health laboratories that 
        provide the infrastructure and capacity to respond to public 
        health emergencies, to establish surge capacity in public 
        health laboratories for measuring people's exposure to a 
        variety of radionuclides.

Lessons Learned from UK Polonium-210 Event

    The recent incident in London involving the death of a former 
Russian KGB agent from exposure to Polonium-210 underscores the 
importance of having laboratory capability that can provide human 
exposure information.
    Shortly after the incident, CDC became the U.S. Public Health Point 
of Contact for the U.K. Health Protection Agency. The CDC radiation 
laboratory was asked to identify laboratories in the United States that 
could analyze Polonium-210 in urine because it was thought that some 
U.S. citizens had been exposed to the radionuclide during the incident. 
We contacted more than 12 federal or commercial laboratories in the 
United States to determine which could do the analysis. We found that 
only one laboratory--a commercial laboratory--could analyze Polonium-
210 and had certification under the Clinical Laboratory Improvement 
Amendments (CLIA-certified). This laboratory needed 24-hour urine 
samples, and its usual time for sample analysis is 30 days. For this 
emergency, the laboratory completed the analyses in seven days.
    In an effort to identify U.S. citizens who may have been exposed to 
Polonium-210, CDC began contacting these citizens directly by 
telephone, e-mail, or letter. In a few cases, CDC contacted the State 
or local health department and provided lists of citizens within their 
jurisdiction to contact. CDC provided State and local health 
departments with telephone interview scripts for this process. If the 
individuals or their physicians who were contacted wished to have urine 
testing performed, CDC referred them to a private laboratory capable of 
performing this analysis.
    Thirty-one individuals who were tested requested that their 
laboratory urine results be interpreted by CDC. CDC's Health Physics 
staff calculated individual dose assessments based on internationally 
recognized and accepted methods similar to dose assessments that were 
used by the UK Health Protection Agency and communicated these results 
to the individuals or their physicians.
    Communication played a key role in CDC's efforts to monitor U.S. 
citizens potentially exposed to Polonium-210. CDC provided citizens, 
their private physicians, and the State and local health department 
with communication and educational materials about the incident and 
laboratory testing. Direct communication via telephone and mail were 
the primary channels for communicating with the citizens and physicians 
involved; however, CDC also used its public web site and secure network 
notification systems to communicate information and updates.
    During the response, contact with citizens initially was delayed in 
large part by a lack of complete contact information for U.S. citizens. 
At the outset, CDC had to rely on contact information provided by the 
UK Health Protection Agency, which obtained telephone and address 
information obtained from hotel registers or credit card receipts in 
places of interest. Therefore, neither CDC nor the UK Health Protection 
Agency can be certain that all potentially exposed people were 
contacted or whether other people who may have been exposed (e.g., 
those paying bills in cash) will ever be identified.
    Communications with State and local health agencies were hampered 
because of limited awareness or understanding about the State and local 
health department responsibilities in an event involving radioactive 
materials. In some cases, State and local health departments did not 
know their Radiation Control Program contact even when this contact 
resided in their own organizational structure. CDC did provide this 
information to the requesting health departments but cannot be certain 
that other health departments made the correct connections to their 
local Radiation Control Program.
    Finally, the private laboratory conducting the testing did not 
provide results of analyses directly to CDC, citing privacy issues. In 
all cases, the private laboratory would not provide results directly to 
CDC without the express permission of their clients. Therefore, CDC 
cannot be sure that it has received the results of all of the analyses 
conducted for U.S. citizens.
    The Nation has a limited laboratory capability necessary to 
identify people who were exposed occurring during an event involving 
radioactive materials. This leads to a limited capability to provide 
patients, their doctors, and health departments with exposure 
information.
    The Nuclear/Radiological Annex of the National Response Plan tasks 
the Department of Health and Human Services with coordinating federal 
assistance for performing population-monitoring activities. Population 
monitoring is a process that begins soon after a radiation incident is 
reported and continues until all potentially affected people have been 
monitored and evaluated for the following:

        <bullet>  Needed medical treatment

        <bullet>  The presence of radioactive contamination on the body 
        or clothing

        <bullet>  The intake of radioactive materials into the body

        <bullet>  The removal of external or internal contamination 
        (decontamination)

        <bullet>  The radiation dose received and the resulting health 
        risk from the internal and external exposure

        <bullet>  Long-term health effects

    Assessment of the first five items listed above, and the whole body 
external dose, should be accomplished as soon as possible following an 
incident. Long-term health effects are usually determined through a 
population registry and an epidemiologic investigation that will likely 
span several decades.
    Under the Nuclear/Radiological Annex of the National Response Plan, 
population monitoring is the responsibility of State, local, and tribal 
authorities, assisted and supported by HHS. However, it is likely that 
in a mass casualty event involving radioactive materials State, local, 
and tribal authorities will very quickly request assistance from the 
Federal Government.
    In the United States, 31 states have operating nuclear power 
plants. These states already have local plans for responding to an 
incident at the nuclear power plant in their own state or at one in a 
neighboring state. These plans include requirements related to 
population monitoring. However, effective response to a radiological or 
nuclear terrorism incident requires a broader scope of planning and 
most likely a different mode of response than those described in these 
current plans.
    Plans need to account for several factors: first, the suddenness of 
an incident (as opposed to a nuclear power plant failure that would 
likely unfold over a 24- to 72-hour period); second, the likelihood 
that the incident would be large in scale, involving a much larger 
urban population; and third, the unknown aspect of the radionuclide(s) 
involved. However, the plans and expertise already developed can be 
assets in preparing for a radiological or nuclear terrorism incident 
with mass casualties in these states.
    CDC, working with technical staff from a number of other federal 
agencies, has developed a planning guide on population monitoring in 
radiation emergencies for public health officials and emergency 
preparedness planners at the State, local, and tribal levels. CDC is 
also developing materials to assist these officials in training 
personnel to initiate the population- monitoring process before any 
federal assets can arrive to assist. However, although most State, 
local, and tribal authorities have some limited ability to perform 
external population monitoring and decontamination, their ability to 
perform internal monitoring and decontamination is much more limited.
    For the lab results to be used effectively in managing a radiation 
event, personnel who are radiation experts in converting radionuclide 
analyses into dose and risk are required. They can then communicate 
health risk information to health care providers and decision-makers. 
In every level of government, the Nation has a limited supply of the 
radiation health experts who provide these interpretations. CDC plans 
to leverage the expertise of the radiation protection experts within 
the Department of Energy and other federal partners. During a national 
emergency, these experts could be used to help CDC with the surge in 
needs.

TOPOFF Update

    The recent TOPOFF-4 exercise represented the first mass-casualty 
exercise that included population monitoring as a significant exercise 
objective. In preparation for TOPOFF-4, I oversaw plans that would 
exercise CDC's clinical laboratory capabilities. These included sample 
acquisition, packaging and shipping, sample logistics, analysis, risk 
assessment, and reporting of final results to State officials. Before 
the exercise, CDC collaborated with the State public health laboratory 
in Oregon to pre-position 100 urine samples in Portland.
    As the Nation's premier terrorism preparedness exercise, TOPOFF-4 
highlighted the essential functions and challenges involved in 
responding to a national incident involving radioactive materials. It 
is clear that we have challenges in our laboratory capacity to respond 
to a radiological event. We are working to complete the Urine 
Radionuclide Screen and consider plans to transfer the Urine 
Radionuclide Screen to public health laboratories in the future. At the 
same time, we are supporting improvements in preparedness for 
biological and chemical events as well, at both the federal and State 
levels. We continue to strive to maintain a balanced effort across all 
high priority threats and improve overall public health preparedness.

Closing Remarks

    CDC is addressing existing gaps by systematically identifying 
priorities and working to alleviate these concerns. We have developed a 
series of goals to guide capacity improvements in preparedness and 
other areas. CDC wants to make sure the investments the American people 
make in public health are having impact.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to respond to any questions that you or Members of the 
Subcommittee may have.

    Chairman Miller. Thank you. And now Dr. John Vitko will 
read the prepared testimony of Dr. Randy Long who cannot be 
with us.

     STATEMENT OF DR. JOHN VITKO, DIRECTOR OF CHEMICAL AND 
  BIOLOGICAL DIVISION, U.S. DEPARTMENT OF HOMELAND SECURITY; 
  REPRESENTING DR. S. RANDOLPH LONG, CHIEF TECHNICAL ADVISOR, 
    CHEMICAL AND BIOLOGICAL DIVISION, SCIENCE & TECHNOLOGY 
          DIRECTORATE, DEPARTMENT OF HOMELAND SECURITY

    Dr. Vitko. Good morning Chairman Miller, Ranking Member 
Sensenbrenner, and distinguished Members of the Subcommittee. 
As noted, I am John Vitko. I am the head of the Chemical and 
Biological Division in the Department of Homeland Security 
Science and Technology Directorate. And Randy Long is one of my 
senior advisors and also the Chair of the Network Coordinating 
Group for the ICLN. He expresses his regrets for not being 
here. He developed extreme pain in his knee last night, could 
barely hobble out of the office, and is seeking some emergency 
care probably as we speak, so please accept his regrets.
    With that I will read his statements and it is that I am 
pleased to appear before you today with this panel to discuss 
the Nation's radiological laboratory capabilities and 
capacities to respond to an accidental or intentional release 
of radiological material. Insofar as the panel assembled here 
has the technical depth and responsibility for addressing the 
functional needs, I will restrict my comments to the ICLN and 
the role it plays in highlighting and supporting laboratory 
analytical requirements across the all-hazards landscape.
    Assessment of contamination due to any hazard in the 
chemical, biological, or radiological realm requires highly 
technical laboratory services. Expeditious decisions that may 
affect large numbers of people and key assets of commerce or 
government critically depend on a system of quality laboratory 
service that is both sufficiently robust and provides the data 
needs for such decisions. The need to develop such a system of 
quality laboratory service across all hazards provided the 
impetus for the establishment of the ICLN.
    Upon establishment, one major charge to the ICLN relevant 
to the subject of this hearing was the assignment of 
responsible federal agencies across the chem-bioradiological 
laboratory response spectrum.
    The principal analytical matrices that would be encountered 
include clinical, environmental, food, drinking water, animal, 
and plant samples. Phases of response common to each hazard 
include monitoring and surveillance, incident response, 
remediation, and forensics. The assignment of responsible 
federal agencies for each matrix and phase gave consideration 
to existing department obligations and authorities, a history 
of already working toward or having established capability, and 
applicable executive branch directives.
    In the areas of response and remediation to radiological 
contamination, HHS, DOE, and EPA are considered the major 
players. When the ICLN Network Coordinated Group considered in 
2006 the establishment of a radiological working group to 
consider laboratory needs and gaps, it charged HHS and EPA with 
co-chairmanship with DOE being a key member of the group.
    Another major objective of the ICLN has accomplished is a 
first assessment of the Nation's laboratory capabilities across 
the chem-bio-radiological spectrum. This study initiated in 
early 2006 and was finalized as a For Official Use Only report 
in April of 2007. The study is considered a first-order 
analysis of the ICLN laboratory networks in response to nine 
selected homeland security scenarios. These scenarios explored 
chemical, biological, and radiological hazards across a variety 
of targets, human, animal, and plants. It is functionally a 
self-assessment and provides a reasonable estimate of gaps that 
may exist between estimated analytical requirements and 
estimated existing capabilities.
    An exceedingly important caveat is that the assessment is 
based on agent-specific scenarios. Changes in agent or other 
key scenario parameters could substantially alter conclusions 
found in the report. Specifically for the scenario involving 
radiological agent dispersal, the study results indicate 
``major shortfalls'' in environmental and clinical laboratory 
capability in the response to and remediation of such an event. 
We can infer from the assessment that without the benefit of an 
organized framework and some expansion of quantitative 
analytical capabilities, decisions based on analysis of both 
clinical and environmental samples for a radiological dispersal 
event may be compromised.
    The ICLN Coordinating Network Group discharged the 
Radiological Lab Response Working Group to consider the logical 
steps to be taken to close the analytical gap in this area. 
This group has outlined the measured approach based on building 
prototype capabilities consistent with best practices 
recommended by the ICLN which can be expanded as adjustments in 
funding priorities become favorable. It is our expectation that 
the recently concluded TOPOFF-4 exercise and the follow-on, 
long-term recovery tabletop exercise will substantially inform 
this need. The interagency laboratory response community is 
constituted in the ICLN Network Coordinating Group, supports 
forward movement in the establishment of effective radiological 
laboratory response capability, and very much appreciates the 
Subcommittee's interest in this need.
    Again, I thank you for the opportunity to address this 
committee.
    [The prepared statement of Dr. Long follows:]
                 Prepared Statement of S. Randolph Long

INTRODUCTION

    Good morning, Chairman Miller and distinguished Members of the 
Subcommittee. I am pleased to appear before you today to discuss the 
Nation's critical need for improved radiological laboratory 
capabilities and capacities to respond to an accidental or intentional 
release of radiological material. Insofar as the panel assembled here 
has the technical depth and responsibility for addressing the 
functional needs, I will restrict my comments to the Integrated 
Consortium of Laboratory Networks and the role it plays in highlighting 
and supporting laboratory analytical requirement across the all-hazards 
landscape.

THE ROLE OF LABORATORIES IN RESPONSE TO A RADIOLOGICAL INCIDENT

    Assessment of contamination due to any hazard in the chemical, 
biological, or radiological realm requires the services of highly 
technical laboratory services. These services support both the 
determination of exposures to population, to determine who has been 
exposed to how much of the hazard, and the determination of the 
environment or physical space that remains a hazard until remediation 
and restoration has occurred. In both cases, decisions affecting 
application of medical countermeasures and evacuation from potentially 
contaminated spaces are effectively determined through risk assessments 
that rely upon quality information from laboratory systems. Expeditious 
decisions that may affect large numbers of people and key assets of 
commerce or government critically depend on a system of quality 
laboratory service that is sufficiently robust to provide the data 
needs for such decisions.
    The need to develop such a system of quality laboratory service 
across all hazards provided the impetus for the establishment of the 
Integrated Consortium of Laboratory Networks.

INTEGRATED CONSORTIUM OF LABORATORY NETWORKS (ICLN)

    In response to the threat posed by terrorist use of WMD threat 
agents, a number of laboratory networks have been established over the 
past several years to provide the Nation the capability to 
characterize, contain, and recover from such attacks on our people and 
our essential commodities. During the fall of 2004, the Homeland 
Security Council and multiple Agency stakeholders worked together to 
develop an organizational framework that links existing and future 
laboratory networks under a single interagency umbrella. The goal of 
the effort is to create the basis for a system of laboratory networks 
capable of integrated and coordinated response and consequence 
management of acts of terrorism and other major incidents requiring 
laboratory response. Establishing a laboratory network system to 
strengthen early detection and consequence management is consistent 
with Homeland Security Presidential Directives 9 and 10.
    The Memorandum of Agreement establishing the Integrated Consortium 
of Laboratory Networks (ICLN) was signed in June of 2005. Senior 
officials of agencies with primary responsibility for current and 
emerging networks as well as those with a strong supporting role joined 
together to endorse the laboratory organizational framework. Signatory 
agencies to this agreement include the Department of Agriculture (Food 
Safety Inspection Service [FSIS], Cooperative State Research, 
Education, and Extension Service [CSREES], and Animal and Plant Health 
Inspection Service [APHIS]), Department of Commerce, Department of 
Energy, Department of Health and Human Services (Food and Drug 
Administration [FDA], and Centers for Disease Control and Prevention 
[CDC]), Department of Defense, Department of Homeland Security, 
Department of Interior, Department of Justice (Federal Bureau 
Investigation), Department of State, and the Environmental Protection 
Agency.
    As outlined by the MOA, the primary functions and motivations of 
the ICLN include:

        <bullet>  Agreement by signatories to work cooperatively to 
        optimize national laboratory preparedness by improving 
        coordination of laboratory response to incidents;

        <bullet>  Recognizing Responsible Federal Agencies' role in 
        assuring capability of networks;

        <bullet>  Promoting common standards of performance across all 
        lab response assets to ensure data supporting homeland security 
        decisions is best quality and defensible;

        <bullet>  Assessing and filling gaps in coverage across 
        multiple sample types, potential victim groups (human, animal, 
        plant), all WMD weapons, and all response phases;

        <bullet>  Rationalizing and enhancing relevant interagency 
        budgets.

    Established networks included in the ICLN are the Laboratory 
Response Network (LRN), Food Emergency Response Network (FERN), 
National Animal Health Laboratory Network (NAHLN), and National Plant 
Diagnostic Network (NPDN). A network under development in the 
consortium is EPA's Environmental Laboratory Response Network (eLRN).
    The managers of the networks mentioned above, along with designated 
representatives of other signatory agencies, comprise the Network 
Coordinating Group (NCG) of the ICLN, which meets on a monthly basis. A 
senior-level oversight group, the Joint Leadership Council, oversees 
their work. DHS serves to coordinate activities through chairmanship of 
the JLC and the NCG.
    To support the efforts of the primary representatives of the NCG, 
the NCG established a number of technical sub-groups, addressing issues 
of Scenarios and Threat Prioritization, Methods Development, Quality 
Assurance, Training, and Information Technology and Communications. In 
addition, three technical working groups address specific areas of 
concern. These include the Environmental Anthrax Sampling Validation 
Working Group, the Environmental Chemical Laboratory Response Working 
Group, and the Radiological Laboratory Response Working Group.
    In its short history, the ICLN has accomplished two major 
objectives relevant to the subject of this hearing: the assignment of 
Responsible Federal Agencies across the CBR response spectrum, and a 
first assessment of the Nation's laboratory capability across this same 
spectrum.

Assignment of Responsible Federal Agencies

    In order to ensure a basis for organization and maintenance of the 
Nation's laboratory response infrastructure against chemical, 
biological, and radiological, the ICLN first considered the types of 
samples which might require analysis and the phase of response during 
which such analysis would be required. The principal analytical 
matrices that would be encountered include human clinical, 
environmental, food, drinking water, animal, and plant samples. Phases 
of response common to each hazard area include monitoring and 
surveillance, incident response, remediation, and forensics. The 
assignment of Responsible Federal Agencies gave consideration to 
existing Department obligations and authorities, a history of already 
working toward or having established capability, and applicable 
Executive Branch directives or logical extensions thereof.
    These assignments are not ratified among the signatory agencies by 
a separate formal Memorandum of Agreement, but rather serve as a basis 
for development and sustainment of an effective all-hazards laboratory 
response capability. Accordingly, if prevailing guidance or 
organizational environment shifts, the assignments could, in principle, 
change. Separate MOAs do need to be developed to outline the shift in 
operational responsibility from one agency to another during response 
to a crisis to enhance overall orderly process. Finally, the level of 
attention given to a specific analytical area is expected to be guided 
by consideration of risk relative to other requirements.
    It will be noted that, in the areas of response and remediation to 
radiological contamination, EPA, DOE, and HHS are the major players. 
When the ICLN NCG considered in 2006 the establishment of a 
radiological working group to consider laboratory needs and gaps, it 
charged EPA and HHS with co-chairmanship.

ICLN Capability Assessment Key Findings

    The assessment and addressing of gaps in the Nation's laboratory 
response infrastructure is a key charge to the ICLN under its MOA. The 
ICLN addressed this charge through a study initiated in early 2006 and 
finalized as an FOUO report in April 2007. The study considered nine 
scenarios, generally inspired by the National Planning Scenarios, which 
explored chemical, biological, and radiological hazards across a 
variety of targets (i.e., humans, animals, and plants). The Homeland 
Security Institute mediated the study and assimilated the report, 
relying heavily on modeling support and sample throughput data from 
technicians within the National laboratory response system.
    The study is considered a first-order analysis of capabilities, 
capacities, protocols, and policies of the ICLN laboratory networks in 
response to the selected homeland security scenarios. It is 
functionally a self-assessment of the ``as-is'' operational context of 
the member networks and provides an ``order of magnitude'' estimate of 
gaps that may exist between analytical requirements and existing 
capability.
    In order to assure parity across the range of scenarios and 
networks examined, certain bounding conditions were set: Funding, 
reagents, and consumable materials were not considered to be limiting 
factors. Normal rates of laboratory staffing were assumed. Industry and 
private laboratories outside Federal oversight were excluded, but 
laboratories within other Federal agencies were included as analytical 
assets to the extent they could be accessed. In addition to projected 
actual sick or injured, ``worried well'' were included. No assumptions 
related to policies that might mitigate analytical requirements were 
made, but prevailing policy was certainly considered. All qualified 
laboratories within established networks were considered to be 
accessible analytical resources, regardless of state and local 
boundaries. An additional exceedingly important reminder is that the 
assessment is based on agent-specific scenarios. Changes in agent or 
other key scenario parameters could substantially alter conclusions 
found in the report.
    Specifically for the scenario involving radiological agent 
dispersal, the study results demonstrate ``major shortfalls'' in 
environmental and clinical laboratory capability in the response to and 
remediation of such an event.
    For the specific agent used in the RDD scenario, various sources of 
data were used to identify laboratories with adequate characteristics 
to contribute materially to the environmental sampling needs that would 
support on-the-ground hazard mapping and decontamination. Against the 
scenario estimate of a large number of environmental samples required 
during the remediation process, a backlog of samples awaiting analysis 
would extend some 50 to 100 weeks beyond the event and substantially 
affect decisions regarding the remediation activity. Similarly, the 
scenario estimate of clinical samples requiring analysis significantly 
exceeds the modeled capability for such samples.
    The study did not take into consideration the positive benefits of 
streamlined sampling and analysis, for example, the pooling of samples 
from multiple sites or individuals that may decrease the overall 
analytical burden. As such methods are developed and validated, an 
improvement in our analytical posture may be expected. However, without 
the benefit of an organized framework and adequate quantitative 
analytical capability, it seems clear that decisions based on the 
analysis of both clinical and environmental samples for a substantial 
RDD event would be compromised.
    The testimonies of CDC and EPA will address the clinical and 
environmental analytical gaps and their implications on response and 
recovery.

STEPS TAKEN TO BUILD AN EFFECTIVE RADIOLOGICAL ANALYTICAL CAPABILITY

    As noted earlier, the ICLN established a Radiological Lab Response 
Working Group in 2006 to begin to consider the radiological testing gap 
and what needs to be accomplished to close this gap. EPA and CDC were 
charged with co-chairing the group, which includes participation also 
from DOE, DHS, FDA, USDA, National Institute for Standards and 
Technology, U.S. Geological Survey, and Association of Public Health 
Laboratories.
    An effective radiological lab response network would address 
capability gaps by establishing acceptance criteria for membership; 
identifying and enhancing select federal and State laboratories that 
have attributes closest to those required to meet acceptance criteria; 
providing those laboratories with the appropriate tools, resources, and 
analytical methods; establishing and exercising proficiency testing to 
ensure readiness and quality; and establishing data management and 
communication protocols.
    The NCG advised the group that, given prevailing funding 
priorities, a measured approach designed to explore the relationship 
between analytical power and cost would be the most logical means to 
establish initial capability while describing the total cost associated 
with establishing a capability that might be considered ``adequate'' to 
meet the needs of an incident of substantial scope.
    The initial vision of the Radiological Lab Response Working Group 
incorporates three ``sub-networks,'' each covering environmental, 
clinical, and food samples, under the sponsorship of EPA, CDC, and FDA, 
respectively. Pilot programs have been formulated or proposed within 
each agency to serve as the genesis of a national radiological 
capability.
    The effort has just begun, with the bulk of the work required to 
establish an effective radiological analytical capability still ahead.

TOP OFFICIALS 4 EXERCISE

    This hearing occurs shortly after the end of the TOPOFF-4 exercise. 
Our information indicates varying levels of play by analytical 
resources of several government agencies (e.g., DOE, EPA, FBI) in the 
exercise. The exercise will explore, in various venues, gaps and 
deficiencies related to short-term medical monitoring, long-term health 
issues, effects on consumables such as food and water, decontamination, 
and waste disposal. Laboratory analytical information is a key 
component to addressing these issues. The actual exercise and 
associated table-top exercises, to include the Long-Term Recovery 
Table-top Exercise scheduled for early December, offer valuable fora 
for the consideration of gaps related to radiological laboratory 
infrastructure.

CONCLUSION

    The ICLN exists to design, develop, and promote the use of best 
practices across the Nation's laboratory response infrastructure to 
inform critical decisions in the response and recovery from incidents 
involving chemical, biological, and radiological hazards. We have 
assessed a significant gap in our radiological laboratory response 
capability which may compromise important decisions regarding health 
and environment in key scenarios. We will continue to promote the need 
to fill this gap among the agencies identified as Responsible Federal 
Agencies and their partners, and appreciate very much the interest of 
this Subcommittee in radiological laboratory matters.

                               Discussion

    Chairman Miller. Thank you. The bell that you heard was our 
being called to a vote. It appears that there is some grievance 
that the Minority has, and we will have a series of protest 
votes, temper tantrum votes. Someone has moved to adjourn, and 
I will need to go over and Mr. Baird will need to go over to 
vote against adjourning and probably pretty much as soon as we 
get back, someone will move again to adjourn. So we will do the 
best we can in trying to proceed with questions, but we will be 
doing kind of a middle-aged equivalent of wind sprints between 
here and the Capitol. Why don't we adjourn now, all go vote. We 
will ask over there whether another vote is coming immediately 
or not and try to come back and try to make some sense of 
today's hearing.
    Mr. Baird. Mr. Chairman?
    Chairman Miller. Yes.
    Mr. Baird. Is the middle age in reference to our age or the 
epoch?
    Chairman Miller. I suppose it could be either. I hope that 
this is a middle. Thank you. We will be back. Sometime. Thank 
you.
    [Recess]
    Chairman Miller. There is no telling what the day will look 
like. Probably the third or fourth time I have to run back and 
forth like that I am probably going to be pretty cranky, so you 
may not want to take questions from me after that point. And 
this is not the kind of hearing in any case when we think 
witnesses are being less than forthcoming. Those kinds of 
hearings are a great deal more fun to conduct, but there will 
not be any high, hard, inside pitches here. We do fundamentally 
think that what you're telling us is true. And our questions 
will simply be to call upon you to reiterate or elaborate upon 
some portions of your testimony. So if we can't really complete 
any kind of coherent period of questioning, I am not sure that 
the loss will be that great. I think we have already 
accomplished what we needed to accomplish by your testimony 
already, your oral testimony and that which you have submitted 
in writing.

      National Environmental Radiological Laboratory Capacity Gap 
                               Assessment

    With that said, I now recognize myself for five minutes of 
questioning. Dr. Griggs, you had a report prepared or a report 
was prepared for you earlier this year that assessed the 
national environmental radiological laboratory capacity gap. 
Tell us what the report found and what the findings tell us 
about our ability to respond to a dirty bomb if it were 
detonated in an American city. I think that is probably not 
dissimilar to what you have already testified about, but go on.
    Dr. Griggs. Mr. Chairman, we looked at really one RDD event 
in a single city, and we estimated the environmental sample 
demand from that event. We then compared that to our assessment 
of the national lab capacity, and we looked at laboratories 
from two major aspects, one would be their capacity, their 
infrastructure in terms of personnel, equipment, and the 
ability to process samples. But we did also look at their 
competency, and to do that we had reviewed historically how 
well they had done on proficiency test samples from like the 
Quality Assessment Program (QAP) and other programs that send 
samples to laboratories and have them report back results. And 
what we found is that when you look at the national 
environmental lab capacity versus the sample demand, 360,000 
samples over a year, there was a significant gap in the ability 
to analyze samples promptly and report the results.
    And the numbers that we talked about averaging about 3,000 
samples per week was the average capacity gap with peak 
capacity gap 7,000 to 9,000 samples per week. These numbers 
indicate a pretty serious gap in terms of environmental 
analysis capability in the country. When we look at absent in 
an increase in that national capacity that it would take a 
little over 100 weeks, or two years, to analyze the samples 
that would have been collected in a single RDD event, and I 
think as you have noted and Ms. Tulis noted the scenario 11 is 
actually three RDD event. So if we compare it back to that 
scenario, you can take that gap and multiply it times three and 
the timeframes times three as well. So it is indicative of a 
very significant gap, and that is going to be a delay in data 
to decision-makers, action to protect home health and cleanup 
and contamination. Our major focus is on the critical recovery 
phase as Dr. Hadley talked about in the kind of early phase. 
But we are looking at the clean-up phase, recovery phase, and 
that is where the bulk of the laboratory samples are going to 
be generated, and that is where our numbers actually came from.

              How the Gap Effects Response to a Dirty Bomb

    Chairman Miller. What would be the real-world consequences 
of that gap? How would it affect our ability to respond to the 
detonation of a dirty bomb in American cities?
    Dr. Griggs. I will let Dana elaborate more, but essentially 
laboratory data provides decision-makers the information that 
they need to make decisions about is it safe to reoccupy 
buildings. Have the decontamination efforts been successful? 
Because there will be a tendency to decontaminate what can be 
contaminated, potential public health impacts because of the 
data we fed into CDC and they would likely use our data for 
their kind of estimates for example. So basically all the 
conscious management decisions that go into the recovery effort 
are predicated on accurate, timely data; and with this gap 
there is going to be deficiency of accurate and timely data. So 
the decision-makers will be faced with issues of either having 
to make decisions without the adequate data or having to delay 
their decisions, and that could result as you noted in your 
testimony in increased economic losses because of the lack of 
ability to go back to reoccupy the city, potential additional 
health impacts if the data were insufficient and incorrect 
decisions were made based on that data. So it creates a whole 
host of problems as you can imagine when you simply don't have 
information you need to evaluate the status of the extent of 
the contamination, the degree of the contamination, and likely 
impacts to the public health.
    Chairman Miller. Ms. Tulis, would you like----
    Ms. Tulis. There is just one thing I wanted to note just to 
be clear. We do have field tools to be able to detect radiation 
very early on, and so for those critical decisions, sheltering 
and place, evacuation, we would be able to still make those 
decisions. This is more for the long-term remediation and 
consequence management stage.

            Ability to Evaluate the Damage Done By an Attack

    Chairman Miller. The whole premise of terrorism is to 
create terror among a civilian population by attacking not 
combatants but non-combatants, attacking a civilian population, 
innocents, and not having the violence appear random, unrelated 
to anything that non-combatants had done to create terror among 
the population. What will be the effect on the population of an 
inability to know exactly what damage had resulted, what the 
level of contamination was, and what health effects there might 
be, Dr. Griggs?
    Dr. Griggs. Well, certainly as you indicated there is going 
to be great panic and concern because one of the issues in 
addition to the impacted urban environment of the city is that 
as people leave the city from that area, potentially they could 
be taking material home with them, and their homes could be 
contaminated. You get kind of transport, people moving about in 
that city; and I think radiation in general for a lot of people 
is a very fearful type of a threat. So the lack of data I think 
is just going to result in heightened public concern and panic 
and frankly a demand for answers for what risks are they at, 
what can be done to protect them and their families and those 
kinds of things. I think the longer it goes without sufficient 
data, the greater those concerns are going to be.

                              QAP Programs

    Chairman Miller. Anyone else wish to respond to that 
question or both questions? Dr. Griggs, you mentioned QAP which 
is not Elmer Fudd using a mild profanity, it is an acronym for 
Quality Assurance Program, a program the Environmental 
Measurement Lab, a government-owned and managed lab in New York 
which dates back to the Manhattan Project. And the Department 
of Homeland Security closed that lab a couple of years ago. How 
do the programs of QAP compare to the kind of proficiency 
testing that you had said is needed?
    Dr. Griggs. Mr. Chairman, one of the things that we did 
when we did our evaluations of laboratories for our assessment 
of the national capacity is that we actually went back and 
looked at historical data from the QAP program and also for 
another acronym, the MAPEP program which is a Dewey Laboratory 
out of Idaho. And the data from both of those assessment 
programs was really critical in our evaluation of laboratories 
for their capability and their competency. It allowed us to 
look at select radionuclides that are likely to be very 
important in an RDD event and to see how well those labs have 
performed over the years in key environmental matrices like air 
filters, water, and vegetation. So it's a critical data set as 
we evaluate those laboratories and they help us to select which 
laboratories we could turn to.
    Now, from the laboratory perspective, in addition to those 
that assess the laboratories, from the laboratory perspective 
these samples are invaluable in that they allow the laboratory 
to analyze externally prepared samples of known concentration 
that are traceable back to a national standard, general NIST, 
the National Institute of Standards and Technology, and it 
allows them to adjust, augment their measurement systems to 
make sure that they have the necessary accuracy and precision 
that they need. So these programs are invaluable to both those 
that assess laboratories and to the laboratories themselves.

                       The Decision to Close QAP

    Chairman Miller. On a stupidity scale of one to 10, one 
being Einsteinesque and 10 being stupider than dirt, dumber 
than dirt, how would you assess the decision to close QAP?
    Dr. Griggs. Mr. Chairman, I don't know that I am in a 
position to answer that because I don't know the factors or 
considerations that DHS faced when they made that decision. All 
I can say is the data from those programs is a valuable data 
set.

               EPA Preparedness to Deal With a Dirty Bomb

    Chairman Miller. Ms. Tulis, EPA's role at the World Trade 
Center has been severely criticized, being unable to tell 
exactly what the environmental risks were coming out of that. 
Is EPA better prepared now in dealing with a radiological 
emergency, a dirty bomb detonation, than it was to deal with 
the World Trade Center?
    Ms. Tulis. The EPA is certainly better prepared to respond 
to any sort of national incident such as we had for the World 
Trade Center. We spent the last six years becoming more 
prepared, hiring more people, reorganizing, getting the right 
resources, having 50 additional people added to our 
environmental response team, creating the Office of Emergency 
Management, and establishing our Office of Homeland Security as 
well as working on various preparedness and response 
procedures. So we have been taking great strides to overcome 
some of the issues we had during that large response, although 
we do feel as though we did handle the response well, but we 
always have lessons learned and we continue to apply those to 
the way that we operate.

                     Assessing a Radiological Event

    Chairman Miller. How would the difficulty of assessing a 
radiological event compare to the difficulty of assessing the 
environmental consequences of the collapse of the World Trade 
Center, the towers?
    Ms. Tulis. I mean, they are very different incidents, and 
we basically approach incidents from a site-specific basis. The 
World Trade Center large collapse, the impact, and the analyses 
would be quite different than an RDD event where it is very 
specific type of analyses that we would be looking at.

                        More on the Capacity Gap

    Chairman Miller. Is the gap that we have heard about, the 
capability gap, is it simply a funding issue or is there 
something beyond that other than that?
    Ms. Tulis. I think for radiological laboratories, because 
the community is actually doing a good job of cleaning up the 
existing problems we have had, we just have an economic issue 
going on when we had the actual radiation laboratories from a 
commercial perspective. The businesses are just not being able 
to support, there is just not enough work out there to support 
this type of work anymore. It is very hard to expect a 
commercial laboratory to build up capacity for something that 
may or may not happen, and so we have almost an irony going on 
here where because we have been efficient to cleaning up some 
of our past problems, we are losing that very lab community 
that we would need in the event of a future large-scale 
incident.

                    Why Is There a Lack of Capacity?

    Chairman Miller. Anyone else on that issue? What is the 
reason for the lack of capacity? Is it simply funding? Dr. 
Hadley?
    Dr. Hadley. I agree with Ms. Tulis that there is not as 
much of demand for the radiological community for that type of 
sampling as we have had in the past. We are using less 
materials, we have had nuclear reactors shut down, we have 
cleaned up places, within the weapons complex we have less 
weapons, less production. So there is not as much radioactive 
environmental or clinical analytical activity needed. And so 
these places have been shutting down and closing up, and only 
those that really need to be there, they are viable 
economically, are the ones that are staying open.

        Why Isn't the DOE Prepared for a Radiological Emergency?

    Chairman Miller. You would agree that preparedness is more 
effective if it is done in advance?
    Dr. Hadley. It would be very nice. That is why we are here 
today to work on this. I agree completely, but I think that is 
what is contributing to it.
    Chairman Miller. Dr. Hadley, DOE does have a significant 
radiochemistry infrastructure but it apparently is not 
certified in the way the Congress I think has specified. What 
prevents the DOE from being prepared to do more to analyze 
environmental clinical samples in the kind of emergency we are 
talking about?
    Dr. Hadley. Yes, I understand. DOE has developed their own 
clinical capability to handle its own people, its workers and 
its contractors that are busy working on tasks and operations 
for the Department of Energy. They have been sized to handle 
that situation. Many of the procedures that were developed were 
developed years ago. We have many special procedures where we 
will handle different isotopes than anyone else will because of 
the types of work that we do. Because of some of that--and the 
other thing is we are not available for outside--we are not a 
commercial lab, we do not do outside business. We keep it 
within-house, and we do have QA programs. We have always had QA 
programs. They are just not always the same one as they use for 
outside laboratories. So we have capabilities that are 
capabilities really to handle our own upsets and tasks, and so 
the level of capacity meets that but it is not very much more.

                         The TOPOFF Simulation

    Chairman Miller. In your testimony you said that the 
national radioanalytical laboratory infrastructure was not 
exercised in the TOPOFF simulation. What did you mean by that?
    Dr. Hadley. I participated and I was in the area where I 
was watching samples being collected and what was being done 
with them, and really there was nothing being sent to very much 
of a laboratory. There was one EPA mobile laboratory who had 
prepared 50 samples, and so they were there and they were 
processing samples, but that was it. That is all that I saw 
from my standpoint. There were a few clinical samples. I 
mentioned that REAC/TS DOE, a medical-type group who advise on 
radiation issues, they collected three blood samples, sent them 
off to Oak Ridge, Tennessee, and were processed through their 
cytogenetic laboratory to see what type of radiation dose we 
would expect. But other than that, that was all of the 
laboratory capability I saw utilized.
    One of the issues I should mention to you so that you might 
understand this is in the first few days of an event, the 
environmental laboratory needs are not as big. The first few 
days of an event you are most worried about evacuation, 
sheltering in place, where is the radiation or contamination on 
the ground, and much of the information can be given by direct 
reading instruments and by models. Also it takes time for 
laboratories to arrive and people to arrive to handle 
laboratory samples and collect those samples. So normally 
laboratories get involved a little bit later from an 
environmental standpoint. From a clinical standpoint, they will 
get involved early and that will come through local hospitals 
and others. But the FRMAC and DOE have been most concerned with 
the environmental ones, and even during TOPOFF we saw that 
because of the short duration of the TOPOFF exercise, by the 
time that you would start to see a significant number of 
laboratory samples, it was indexed and the exercise was over.

                             DOE Executives

    Chairman Miller. Dr. Hadley, how much attention are these 
issues receiving from those further up the ladder of the DOE at 
the top levels, Secretary, Deputy Secretary, or Assistant 
Secretary?
    Dr. Hadley. We had had mobile laboratory resources mainly 
for our weapons program for many years. So we had had that, 
they know it is important. There have been emergency resources 
but they have been limiting in scope, not real large, not 
handle a large population. And beyond that I really don't know. 
We would like to do more in this area. We would like to 
exercise more and work with the other agencies in developing 
these networks because we see there is a need.

                         Environmental Samples

    Chairman Miller. For any of you who want to answer it, in 
the materials I read in preparation for this hearing, some 
apparently believe that the estimate of 350,000 environmental 
samples in a year is far too modest of what will actually be 
needed. In what I read, and apparently some of the other 
scenarios besides scenario #11 but the exercise that was built 
around assumes a million. Is that your understanding as well? 
Dr. Griggs?
    Dr. Griggs. Mr. Chairman, I think the million could be a 
result of that the 350,000 is based on a single RDD event in 
one city, and the scenario 11 is based on three identical 
cities; and I think the million is probably the result of the 
that times three effectively. So if you look at the full 
scenario 11, you're looking at a little over a million samples.
    Chairman Miller. But there are some who think the 350 for 
an event is conservative?
    Dr. Griggs. There is a reason to think conservative is 
true.
    Chairman Miller. Anyone else? Dr. Hadley? Dr. Jones?
    Dr. Hadley. Coming up with those numbers is extremely 
difficult because we have not had the event, we have looked at 
the Guyana event and I think that the one thing that we have 
learned from the Guyana, Brazil event, is they very much 
underestimated what they were going to have to deal with. So we 
have come up with our best guess, what those numbers are. They 
may be much higher depending on what happens.
    Dr. Jones. The CDC has not been involved with the 
estimation of environmental sample analysis, so we are not able 
to comment on those numbers.

    What Did the Polonium-210 Poisoning Tell Us About Our Capacity?

    Chairman Miller. You were involved with--and yes, I 
understand that CDC has a different piece of the puzzle. The 
testing for internal contamination on the people who are 
exposed to radiation, what did the response to the Polonium-210 
poisoning in London tell you about our capacity?
    Dr. Jones. It told us that we have a gap in our national 
capacity to respond to a radiological event. Because of the 
fact that we could only identify one later, a second laboratory 
much further down the road that could assist us in identifying 
the people that were potentially exposed and evaluating their 
internal exposure from the Polonium-210.

                       CDC Using DOE Laboratories

    Chairman Miller. I am not trying to start a fight between 
you and Dr. Hadley, but why did CDC turn down DOE's offer to 
conduct assessment with their labs?
    Dr. Jones. In my initial evaluation discussions with the 
Department of Energy, it was actually the Department of Energy 
who pointed me toward the laboratory that we finally utilized. 
Their contract with one of the contract labs was the second 
laboratory that was utilized, or was potentially utilized, and 
we looked at some of the Department of Energy's bioassay 
laboratories, and as Dr. Hadley alluded to, the DOE 
laboratories are more for occupational exposure assessment. If 
you remember from the testimony that we gave earlier, our needs 
for an emergency response, the data needs and the sample size 
needs, are much different than the traditional DOE bioassay 
laboratories. And because those bioassay laboratories were not 
routinely measuring Polonium-210 in people at the time, we felt 
that it would be a much more prudent fact to look at and 
utilize a laboratory that was currently measuring Polonium-210 
in occupational exposed individuals.
    Chairman Miller. Of course, if there were more than 31 
people to test, you would have a bigger problem. What can be 
done for CDC to make use of the Department of Energy's capacity 
or can you find a way to make use of the capacity if you have 
more than 31 people to test?
    Dr. Jones. We have already been in discussion with the 
Department of Energy, and we are looking at evaluating how we 
can utilize their laboratories, utilize their instrumentation 
and personnel, to apply the methods that we are trying to 
develop at CDC to be a surge capacity in the future, utilizing 
the parameters of the data needs that we have. So we have hopes 
that we can in the future work together to utilize their 
infrastructure.
    Chairman Miller. As tedious as it is for me and for you, I 
need to leave and go vote; and I will come back. I think we 
have just a few more questions I really do want to get in. So I 
am not apologizing for something I did not do. I am not going 
and having a temper tantrum, but I will be back in just a few 
minutes.
    [Recess.]
    Chairman Miller. I have to run back and forth from the 
Capitol, but you don't have to sit and wait for him to come 
back anymore.

       Environmental Radioanalytical Laboratory Response Network

    Dr. Griggs, I understand that you have proposed creating an 
environmental radioanalytical laboratory response network to 
close the capacity gap. That you have described in your 
testimony. What is the status of that network, has it received 
funding, is it established already, what needs to be done to 
make it happen?
    Dr. Griggs. Mr. Chairman, let me first say kind of what is 
underway. We have what we call a pilot initiative for this 
network, and it is in the form of two agreements that are going 
to be provided to two State and local laboratories. We are 
receiving applications now from those laboratories and expect 
to award these two agreements in possibly three months. The 
recipient laboratories will receive equipment for counting 
environmental samples, they will receive training, they will 
receive funding to buy supplies and standards and even 
personnel costs. It is called a demonstration project, but the 
laboratories will take this equipment and training and enhance 
their capacity and capability of analyzing environmental 
samples. So it is really in our view the pilot of this larger 
network that you referred to.
    To give this a better sense of, you know, is this approach 
the right approach, are some of our budget numbers correct, are 
the estimates good and to kind of see the kind of results that 
we are going to get from providing this equipment, training, 
and funding to these two State and local laboratories. We are 
in kind of the pilot phase of this particular network. I would 
like to add that this radiological environment laboratory 
network would be a component of the ERN that Mrs. Tulis has 
previously addressed. And I defer to Dana, Ms. Tulis, for any 
comments on that?
    Ms. Tulis. Yes, I mean, that is an estimate as Dr. Griggs 
indicated, and until we get further along, we are not going to 
have a better idea of exact cost. We also, as part of the 
overall eLRN, we are working collaboratively on funding this 
process as well as on working at looking at the future years as 
well. But it is part of our overall budget thinking and 
processing we are working on right now.

         Timeline and Plans for Expanding the Current Capacity

    Chairman Miller. That answer didn't quite suggest the 
urgency that I feel. We have known for at least six years that 
Osama bin Laden tried to buy, has tried to acquire radioactive 
materials for a dirty bomb. How long is this pilot going to go 
on before you try to take it to the scale necessary to be 
prepared to respond to the kind of scenarios that the TOPOFF 
exercise just dealt with?
    Dr. Griggs. I think the plan is we start with the two and 
we would add more, so it would be a phased approach as we add 
additional labs and----
    Chairman Miller. How long are these phases?
    Dr. Griggs. They had projected in the proposal five years.
    Chairman Miller. And at the end of the five years, will 
there be the capacity to deal with the scenario #11?
    Dr. Griggs. Well, this particular proposal really is 
addressed at the capacity of one RDD event, and 11 involves 
three, but we felt like this was initially to get positioned so 
that we could respond to a single RDD event. So that was the 
basis of this particular proposal.
    Chairman Miller. Maybe in five years we will have the 
capacity to respond to one-third of the need that we just 
conducted an exercise to try to assess our preparedness for?
    Dr. Griggs. In addition to this particular proposal, which 
is primarily geared for State and local type laboratories, we 
are developing tools for the commercial sector. We are 
developing varying rapid methods, for example. We are 
developing guidance documents for the commercial laboratories 
that are really aimed at increasing their efficiency and their 
utilization of their existing infrastructure. We have initiated 
training, for example. We developed a training course we 
presented last month at our laboratory, the NAREL laboratory. 
So there are other activities in addition to this that are 
ongoing where the focus is trying to enhance the existent 
commercial capacity. That will put us in a better position to 
respond to such an event as well.
    Chairman Miller. Dr. Jones? I hope you feel great urgency. 
I know that you have proposed a radiochemistry laboratory 
network similar to what the EPA has proposed. That seems to be 
a critical need to prepare for a dirty bomb attack which could 
happen at any time because as Mr. Sensenbrenner has pointed out 
in his opening statement, the material is out there. It is not 
secure. It could happen tomorrow, it could happen this 
afternoon; and being ready maybe in five years, depending on 
how the pilot projects go, does not give me the reassuring 
sense that you feel the sense of urgency about this that feel 
and that Mr. Sensenbrenner feels. Where does your proposal 
stand? Is it a pilot or are you going to ask for funding for 
it? Have you received funding for it? What needs to be done to 
make it happen?
    Dr. Jones. We have started the CDC process of requesting 
funding for proposals like this, and at CDC there is obviously 
the Polonium-210 event as well as the TOPOFF-4 exercise, 
awareness that this is a very important issue. It is in the 
process right now at this year's budgetary allocations, and I 
am not in a position at this time to know where we stand in 
that process.

           What Are the Next Steps to Being Better Prepared?

    Chairman Miller. Well, to all of you, what are the steps 
that you think need to happen? What can we do as Congress? We 
are now finding out for an oversight hearing that we are not as 
prepared as I had assumed we were. We are woefully short of the 
level of preparation that I assumed we would have given how 
clearly this threat has been communicated. I mean, if there is 
one threat, if there is one possible terrorist tactic we know 
Al Qaida is considering is the detonation of a dirty bomb on an 
American city or several American cities. They like to do 
things in a big way, so if they do one in Washington, they 
might very well try to do one in Chicago, and I'm not really 
sure they are thinking about Guam but they might do them in 
several places. What do we need to do to be ready, to 
strengthen our radiological emergency response capacities to be 
able to know whether we can use the buildings that have been 
contaminated; whether they need to be demolished; whether they 
need to be remediated, cleaned up, before anyone can go back 
in; whether we can conduct economic activity in what might be 
critical areas; whether hundreds of thousands of people are 
going to be told that we will test your children for whether 
they have internal contamination, in a couple more years we 
will be able to test them but let us know if their hair starts 
falling out, maybe we can move them up in line. What do we need 
to do to be better prepared than we are? I am not really happy 
with pilot programs at this point. Dr. Griggs.
    Dr. Griggs. I am going to refer this question to Ms. Tulis.
    Ms. Tulis. When you say pilot, it may give a misimpression 
as to what we are actually doing. I mean, the concept is to be 
building capacity, getting additional equipment in there, and 
making sure that we have the performance testing that we need 
to incur. So it made it sound not as proactive as it is. The 
concept is to start to build capacity and provide the funds to 
do that, to learn as we are doing it, and then to continue to 
expand the program. So I do have a concern that it may sound 
like the pilot isn't a proactive enough approach. It is a way 
of getting out there and starting to build capacity at this 
point, but we don't want to just give everything out without 
having a good idea of how to approach this process, and so we 
are starting with the two and we do intend to expand.
    Chairman Miller. Dr. Hadley?
    Dr. Hadley. I think this hearing has been very useful. We 
appreciate being part of it and being able to bring this to the 
attention of the country and particularly our bosses. I think 
now that this has been held, this will get their attention a 
little bit more and funding may become a little easier. That is 
always an issue. But there are a lot of issues in this. There 
are a lot of things that need to be done.
    Chairman Miller. One of the images of Congressional 
Oversight hearings is that top administration officials get to 
hear about what is going on within their administration. Dr. 
Jones?
    Dr. Jones. Again, CDC feels and has realized for some time 
now that this is a gap, and we have worked very hard at 
developing the science behind how would we prepare to respond 
to a radiological event. I believe the current issues have 
raised the awareness within CDC, and we are trying to act on it 
as best we can.
    Chairman Miller. Dr. Vitko, I know that you were here to 
read prepared testimony, but this is something you probably can 
respond to.
    Dr. Vitko. I hope I can. First of all, I agree this has 
highlighted the urgency. I think that the ICLN as a group has 
an action item from this hearing to figure out how they can 
meet that capacity need within five years and come up with a 
concrete plan. I also think the question you raised earlier 
about the significance of the gaps and what do we do if the 
gaps are not filled is one that we could put more attention on. 
Again, there is a question of the number of measurements versus 
the confidence level you place in those, and there may be other 
strategies to look at; and I think we owe answers on both of 
those in a timely way.
    Chairman Miller. Well, I have the important work to do of 
trotting back and forth to the Floor to vote not to adjourn, 
and I am sure that you all have things to do as well. So I 
think without further business, the hearing is adjourned. Thank 
you for being here.
    [Whereupon, at 11:34 a.m., the Subcommittee was adjourned.]

                                   

</pre></body></html>
